<html>
<title> - IRAQ: DEMOCRACY OR CIVIL WAR?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                     IRAQ: DEMOCRACY OR CIVIL WAR?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  EMERGING THREATS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 13, 2006

                               __________

                           Serial No. 109-249

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                     U.S. GOVERNMENT PRINTING OFFICE

38-581 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                      Benjamin Chance, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

Subcommittee on National Security, Emerging Threats, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
KENNY MARCHANT, Texas                DENNIS J. KUCINICH, Ohio
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         BERNARD SANDERS, Vermont
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           CHRIS VAN HOLLEN, Maryland
TODD RUSSELL PLATTS, Pennsylvania    LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. DUTCH RUPPERSBERGER, Maryland
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
              R. Nicholas Palarino, Ph.D., Staff Director
                Kaleb Redden, Professional Staff Member
                        Robert A. Briggs, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 13, 2006...............................     1
Statement of:
    Al-Hasani, Hajim, member of Parliament (Sunni), former 
      speaker, Iraqi Parliament 2005; Karim AlMusawi, Washington 
      representative, Supreme Council for the Islamic Revolution 
      in Iraq (Sciri) (Shia); and Qubad Talabany, representative 
      of the Kurdistan Regional Government of Iraq to the United 
      States.....................................................    59
        Al-Hasani, Hajim.........................................    59
        AlMusawi, Karim..........................................    64
        Talabany, Qubad..........................................    75
    Satterfield, David, senior advisor on Iraq to the Secretary 
      of State...................................................    21
Letters, statements, etc., submitted for the record by:
    Al-Hasani, Hajim, member of Parliament (Sunni), former 
      speaker, Iraqi Parliament 2005, prepared statement of......    62
    AlMusawi, Karim, Washington representative, Supreme Council 
      for the Islamic Revolution in Iraq (Sciri) (Shia), prepared 
      statement of...............................................    66
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................    10
    Satterfield, David, senior advisor on Iraq to the Secretary 
      of State, prepared statement of............................    25
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     4
    Talabany, Qubad, representative of the Kurdistan Regional 
      Government of Iraq to the United States, prepared statement 
      of.........................................................    79


                     IRAQ: DEMOCRACY OR CIVIL WAR?

                              ----------                              


                     WEDNESDAY, SEPTEMBER 13, 2006

                  House of Representatives,
       Subcommittee on National Security, Emerging 
              Threats, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Platts, Duncan, Dent, 
Kucinich, Van Hollen, Lynch, and Higgins.
    Also present: Representative Waxman.
    Staff present: J. Vincent Chase, chief investigator; R. 
Nicholas Palarino, Ph.D., staff director; Kaleb Redden, 
professional staff member; Robert A. Briggs, analyst; Robert 
Kelley, chief counsel; Micheal Girbov, graduate assistant; Phil 
Barnett, minority staff director/chief counsel; Karen 
Lightfoot, minority communications director/senior policy 
advisor; Earley Green, minority chief clerk; and Jean Gosa, 
minority assistant clerk.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats, and International 
Relations entitled ``Iraq, Democracy or Civil War? What Will It 
Take to Achieve a National Reconciliation'' is called back to 
order.
    This is an extremely important topic, and thus, we want the 
record to be complete. Today's hearing is a continuation of 
Monday's hearing. At the end of today we will again recess, not 
adjourn, and we will reconvene on Friday for the hearing's 
final day.
    At the start of each reconvened session, Members have the 
opportunity to make opening statements. In all other respects, 
we will proceed as usual, without prejudice to the rights and 
privileges of any Member.
    Today, we continue our 3-day hearing, ``Iraq: Democracy Or 
Civil War,'' examining security force levels; prospects for a 
national reconciliation; and the consequence of leaving Iraq 
immediately, later but still prematurely, or when Iraqis are 
capable of taking over for Coalition forces.
    The conflict in Iraq finds United States and Coalition 
forces up against increasing insurgent, sectarian and terrorist 
violence. Thomas Friedman of the New York Times, who has 
supported the U.S. objective to foster progressive democracy in 
the Middle East, bluntly stated, ``It is now obvious that we 
are not midwifing democracy in Iraq, we are baby-sitting a 
civil war.'' While some may take issue with Mr. Friedman's 
choice of words, the broad contours of his point are clear: The 
violence in Iraq continues, if not increases. The new Iraqi 
leadership has not yet shown the political will to confront it, 
and its efforts to promote peace and democracy are stalled.
    Iraq security forces are truly improving and growing in 
number, but they face an uphill battle if Iraq politicians are 
not willing to confront the militias and make peace among 
themselves.
    Our witnesses this past Monday came to different 
conclusions about security in Iraq, but one thing was clear 
from their testimony: Our current baseline for overall security 
forces is inadequate; we do not have enough Coalition forces in 
Iraq. In addition, it is clear to me, based on my 14 visits to 
Iraq and all our hearings, that 325,500 projected Iraqi 
security force level to be reached in December of this year 
will be inadequate and not allow us to bring most of our troops 
home. Only when we establish credible, realistic estimates of 
the number of Coalition forces and competent Iraq security 
forces will we be able to set the conditions to eventually 
withdraw the U.S. troop commitment in Iraq.
    We cannot delude ourselves. If we want to be successful, 
the administration needs to work with the Iraqi Government to 
reassess the total number of forces needed to secure Iraq, and 
this reassessment must be completed as quickly as possible.
    Today we investigate what may be the most important issue 
for achieving stability in and democracy in Iraq: the political 
will to implement national reconciliation. Since January of 
this year, little progress has been made. Some of our diplomats 
and military officers openly question whether Iraq's leaders 
have the political will to make tough decisions required to 
drive down current violence and maintain security. Last week 
when the Iraqi legislators returned from vacation, the Speaker 
of their Parliament Mahmoud al-Mashhadani said the Iraqis, 
``have 3 to 4 months to reconcile with each other. If the 
country doesn't survive this, it will go under.''
    Make no mistake. I understand the Iraqi people and the 
officials they elected are grappling with daunting issues that 
have no easy solutions, amnesty, rollback of de-
Ba'athification, federalism, share the oil wealth, and standing 
down militias; but their current inaction is alarming and 
should trouble every American's concern for our men and women 
who are there in harm's way.
    Each of the political milestones achieved in Iraq so far 
has been preceded by strong U.S. pressure. They were more than 
benchmarks, they were specific timelines established to produce 
specific results. These timelines were not easy to meet, but 
they forced Iraqis to make the difficult choices and 
compromises to move forward.
    It is time for the U.S. Government to be blunt with the 
Iraqi leadership. If they are not willing to make peace among 
themselves, the United States will have no choice but to 
rethink how long troops can remain in Iraq. It is time to 
expect results.
    The topics we will discuss today are the prospects, timing, 
and conditions for achieving national reconciliation, and a 
permanent Constitution. We asked our witnesses to address the 
following questions: What are the positions of the Shia, Sunni 
and Kurdish political leadership on each issue related to 
national reconciliation? What are possible ways to bridge the 
differences among the political leadership? What are prospects 
for agreement among the political leadership, and when can we 
expect such agreements to be reached?
    During our first panel we will hear testimony from 
Ambassador David Satterfield. Ambassador Satterfield is the 
senior advisor on Iraq to the Secretary of State and was 
formerly Deputy Chief of Mission at the U.S. Embassy in 
Baghdad.
    Also testifying on panel one will be Mr. Jim Bever, Deputy 
Assistant Administrator for Near East and Asia, U.S. Agency for 
International Development.
    On our second panel we are fortunate to hear the 
perspectives of three prominent Iraqis, Dr. Hajim Al-Hassani, 
former Speaker of the Iraqi Parliament and currently a Sunni 
member of Parliament; Mr. Karim Al-Musawi, Washington 
representative of the Supreme Council for the Islamic 
Revolution in Iraq, the largest political party in Iraq; and 
Mr. Qubad Talabani, Washington representative of the Kurdish 
Regional Government and son of Iraq's President Jalal Talabani.
    We thank all our witnesses for taking the time to appear 
before us today; in fact, we're very grateful that they're 
here.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] 38581.001
    
    [GRAPHIC] [TIFF OMITTED] 38581.002
    
    [GRAPHIC] [TIFF OMITTED] 38581.003
    
    Mr. Shays. At this time, the Chair would recognize Mr. 
Kucinich, the ranking member of the committee.
    Mr. Kucinich. Thank you, Mr. Chairman. And since the 
ranking member of the full committee Mr. Waxman is here, I'd be 
glad to yield to him.
    Mr. Shays. Absolutely.
    Mr. Kucinich. I thank Mr. Waxman.
    Good morning, Mr. Chairman, and to the witnesses. I want to 
thank you and all the witnesses for being here today.
    Today's hearing asks the question, ``Iraq: Democracy or 
Civil War? What Will It Take to Achieve National 
Reconciliation?'' the President's assertions that Iraq is not 
in a civil war is not honest. Over 3 years after the 
administration's misguided war of choice, failed occupation and 
disastrous reconstruction effort, Iraq today is mired in a 
civil war, with U.S. troops and innocent Iraqis caught in the 
crossfire. The fact that July was the deadliest month for 
innocent civilians since the start of the war only further 
proves that after 3 years of the administration's ill-advised 
and misguided war and occupation of Iraq, the situation on the 
ground is getting worse, not better. The civil war in Iraq 
cannot and will not be won by the administration's military 
occupation of Iraq.
    Today's hearing asks the question, what will it take to 
achieve national reconciliation? That's a good question. Maybe 
we could begin by asking first how that relates to the United 
States, and what would it take to achieve national 
reconciliation in the United States? Because the truth of the 
matter is that unless you talk about national reconciliation in 
the same breath as truth--South Africa, truth in 
reconciliation--Americans will continue to go down the blind 
alley in which the President laid another brick in with his 
speech the other night by continuing to conflate Iraq and 
September 11th.
    The Bible says, you shall know the truth, and the truth 
shall set you free. The only way the people of this country are 
going to be free from the lies of September 11th is to have the 
truth come out. Iraq had nothing to do with September 11th, it 
was al Qaeda's role in September 11th. Iraq did not have the 
intention or the capability of attacking the United States, and 
therefore the President's statement the other night that 
Saddam's regime posed a risk the world could not afford to take 
and that the regime of Saddam Hussein was a clear threat, there 
is a mountain of facts to the contrary.
    Yes, we need national reconciliation not just in Iraq, we 
need it in here in the United States, and the only way we can 
get to it is to have the truth. And I'm hopeful these hearings 
will provide some semblance of a forum to accomplish that.
    Let's talk about national reconciliation in Iraq today, 
because maybe talking about it in the United States in the full 
committee might not be within the scope of this particular 
Congress. But I think that we need to focus on another 
question, and that is the desire to end the U.S. occupation, 
because ending the U.S. occupation may be the only thing that 
unifies the various factions in Iraq.
    Three years after our so-called liberation of Iraq, a 
recent public opinion poll found that nearly half of all 
Iraqis, 47 percent, approve of attacks on Americans. Think 
about that. The policy of this administration has placed 
130,000 U.S. troops in the middle of a civil war in a country 
in which almost half the population supports the idea of 
killing our troops. National reconciliation indeed.
    In addition, last week a coalition of 300 tribal leaders 
demanded the release of Saddam Hussein to possibly reinstate 
him to his post as President. While not a majority, it's 
certainly a troubling sign. ``When the Iraqis stand up, we will 
stand down.'' That's a slogan, it's not a plan. When the desire 
to kill our soldiers may be the most agreed-upon thing in Iraq, 
one would have to wonder if sticking to our guns is a rational 
thought. Our presence in Iraq is entirely counterproductive and 
only fuels the growing insurgency. The disastrous 
reconstruction of Iraq, conducted with virtually no 
congressional oversight, has served only to line the pockets of 
Halliburton and other defense contractors, while average Iraqis 
continue to suffer daily without the most basic of services.
    American taxpayers have footed the bill for nearly $400 
billion in war costs, but have those dollars actually improved 
the quality of life of Iraqis? Iraqis are still without 
reliable electricity, clean water or sewage, and garbage piles 
up in the streets. Schools and hospitals remain unbuilt. And 
the oil sector, which was to finance reconstruction costs and 
was the lifeblood and economic driver of the nation, is nowhere 
near to its previous capacity. By almost any standard, the 
quality of life of the average Iraqi is worse off today than it 
was before our invasion.
    While we tried a military solution, that has failed to 
bring about peace and stability to Iraq. We learned this week 
that all military intelligence officials have given up on Anbar 
Province. In addition, after 3 years of military presence, even 
Baghdad, Iraq's capital, is not safe. Read today's news. The 
bodies are just piling up. It would be interesting to hear in 
the testimony today from some of the witnesses whom is killing 
whom there. What is fueling this tremendous increase in murder?
    Repeatedly, our own generals have told us that the war in 
Iraq cannot be won by military force alone; unfortunately, the 
policymakers here in Washington have arrogantly refused to 
listen.
    Mr. Chairman, I think a better topic for this hearing would 
be, ``Three years later, what in the world have we 
accomplished?'' it's increasingly clear that this 
administration's occupation and reconstruction of Iraq have 
failed. After 3\1/2\ years, Iraqi is less safe, not more. Al 
Qaeda, which prior to the U.S. invasion had no influence, has 
now grown in influence and number of recruits. The fact is, Mr. 
Chairman, this administration's policies have turned Iraq into 
a breeding ground and training ground for terrorists and 
created the greatest recruiting tool ever for al Qaeda.
    Mr. Chairman, the greatest tragedy of this war is the 2,669 
American soldiers who have been irrevocably lost, and tens of 
thousands more injured. Between 100,000 and 200,000 innocent 
Iraqis have died as a result of the U.S. invasion. Every day 
120 more Iraqis die at the hands of execution-style death 
squads, kidnappings, murders, IEDs and sectarian violence. The 
war in Iraq was a great and a tragic mistake, it has cost us in 
blood and treasure, it has damaged our once unchallenged 
reputation in the world and squandered the goodwill that rained 
on this Nation after September 11th, and has been a distraction 
for our efforts to root out terrorism worldwide and bring to 
justice those responsible for September 11th.
    The President's promise that we would not leave Iraq until 
after his Presidency will only compound past failures and make 
our Nation less safe. Our continued occupation of Iraq is not 
only counterproductive, but it fuels a civil war.
    Mr. Chairman, I believe it's time we end this great 
misadventure in Iraq, bring our troops home with honor and 
dignity. Thanks again, and I look forward to hearing the 
testimony of the witnesses.
    Mr. Shays. I thank the gentleman.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]
[GRAPHIC] [TIFF OMITTED] 38581.004

[GRAPHIC] [TIFF OMITTED] 38581.005

[GRAPHIC] [TIFF OMITTED] 38581.006

    Mr. Shays. The Chair would recognize Mr. Duncan.
    Mr. Duncan. Thank you very much, Mr. Chairman, and thank 
you for calling this important hearing. And your 14 trips to 
Iraq, I think, surely are more than any other Member of 
Congress has been there, and no one has worked harder on this 
issue than you have.
    This morning on CNN it was reported that a bombing earlier 
today killed 14 and injured 67, and that 60 other bodies were 
found around which had been--who had been tortured. And I doubt 
that anybody in this country was shocked by that report or even 
surprised by that report because we hear these reports daily.
    Almost every article that I ever read says that 100,000 
civilians have been killed in Iraq over the past 3\1/2\ years. 
Is that civil war? Well, this is a country with one-twelfth the 
population of our country, so 100,000 civilians would be like 
1.2 million people being killed in this Nation. Would we say we 
were at civil war if 1.2 million Americans had been killed in 
the past 3\1/2\ years? I think so.
    Then on September 1st, the Pentagon released a report that 
all the new stories described as grim, saying that attacks on 
American soldiers have increased 15 percent over the previous 3 
months, and that civilian deaths were going up averaging 120 a 
day, equal to 43,000 a year, which in our country would be the 
equivalent of 516,000 a year. The report also said that marine 
intelligence report said--the report on CNN this morning said a 
marine intelligence report said al-Anbar Province, which 
includes Ramadi and Fallujah and other key areas, have been 
lost, and that even the addition of 15,000 or 20,000 more 
troops would just be a temporary fix at best.
    This was a war against an evil man, but a man who had a 
military budget slightly over 2/10 of 1 percent of ours, and he 
spent most of that protecting himself and his family. He was 
absolutely no threat to us whatsoever.
    Fortune Magazine on November 25, 2002, said, before the 
war, ``Iraq, we win, what then?'' The article said a military 
victory could turn into a strategic defeat, and that an 
American occupation would be, ``prolonged and expensive, and 
could turn U.S. troops into sitting ducks for Islamic 
terrorists.''
    A columnist for the National Journal wrote that, 
``throughout the Middle East anti-Americanism has grown along 
with U.S. influence.'' He said the lessons of great power 
breeds great resentment.
    William Buckley, Jr., the godfather of conservatism, wrote 
in 2004 that if he had known in 2002 what he knew in 2004, he 
would have opposed the war. Then last year he said something 
very profound, I think. He wrote that if the killings of 
Americans continued at the same rate for the next year--and 
they have actually, and they have actually increased--he said 
we would reach a point, ``at which to remain would become not 
steadfastness of purpose, but, rather, misapplication of 
pride.''
    In fact, the fact is--and few people realize this because 
the conservatives with national television audiences or 
national radio audiences have supported the war, but over half 
of conservative newspaper columnists have opposed this war 
since the beginning. Now, some say that it was a mistake to go 
in; in fact, more than some, many have said, I've heard many 
times, many have said it was a mistake to go in, but now that 
we're there, we must stay the course or finish the job or 
complete the mission, we can't cut and run. But I think if you 
find out that you're going the wrong way down an interstate, 
you don't just keep on going in that wrong direction, you get 
off at the next exit.
    And so I'm saddened at what has occurred there. I'm 
saddened at the tremendous expense to our taxpayers and our 
military, the deaths, the maimings and serious injuries to so 
many thousands of young Americans. This is no criticism of the 
American military, they do a good job wherever they're sent, 
but over half of what we've spent over there has been just pure 
foreign aid, which conservatives have traditionally been 
against. Governor Bush, when he was running for President, 
criticized President Clinton for nation building and said we 
need a more humble foreign policy. I agree with that. And so I 
thank you for calling this hearing today, and I yield back.
    Mr. Shays. I thank the gentleman very much.
    And, Mr. Waxman, you will be recognized--I need to make a 
phone call, that's the only reason I will be relinquishing the 
chair, but you have the floor.
    Mr. Waxman. Thank you very much, Mr. Chairman. I thank you 
for holding this hearing, and I want to tell you I was very 
impressed and moved by the comments of my Republican colleague 
Mr. Duncan in his statement that he has just made.
    It is difficult to take responsibility; it's difficult to 
say that sometimes mistakes are made by those who make them. 
And we speak as Americans, not as Democrats or Republicans, as 
we look at the tragedy that's been unfolding before us.
    Three and a half years have passed since the invasion of 
Iraq, but the situation on the ground today can only be 
described as dismal. The violence in Iraq is spiraling out of 
control. In July, 3,000 Iraqis were killed. The number of 
attacks reached an all time high. There were more than 1,600 
sectarian execution-style killings. By early August there were 
almost 800 attacks per week. Death squads and terrorists are 
running rampant, and independent observers believe a civil war 
has already started.
    And we know that reconstruction hasn't gone any better. In 
Baghdad they don't have electricity except for a few hours 
during the day, and that's in Baghdad. Millions of Iraqis don't 
have access to drinkable water, and the oil production in Iraq 
is below prewar levels.
    Well, there are several ways to approach the reality of 
what we've seen, repeatedly seen. One could be what the 
administration has been saying. They're saying that Iraq stands 
as a shining example of great progress. I don't think there is 
any basis for this kind of optimism. It took 4 months to form a 
government, and the current Iraqi leaders seem to lack the 
political will to reach agreement on the issues that divide 
them.
    So how has the President responded to all of this? Over and 
over again we get the same kind of talk from this 
administration: We are just about to turn the corner. We have a 
steady stream of optimistic projections, we're at a key turning 
point, we're going to have a crucial breakthrough.
    Before the war began, Vice President Cheney promised the 
American people that we will, in fact, be greeted as 
liberators. Well, that never happened. About a month after the 
war, President Bush stood in front of a giant ``Mission 
Accomplished'' sign and said, we have seen the turning of the 
tide, and since then we've had that steady stream of nonsense.
    On June 28, 2004, when we turned over sovereignty, 
President Bush promised that Iraq was at a turning point, but 
the violence just intensified. And even at the January 2005 
elections, President Bush explained, tomorrow the world will 
witness a turning point in the history of Iraq, a milestone to 
the advance of freedom. It sounded good, but it was a complete 
fantasy.
    A few months later Vice President Cheney presented the 
American people with the ultimate of happy talk. On Larry King 
Live he said, ``the level of activity that we see today from a 
military standpoint, I think, will clearly decline. I think 
we're in the last throes, if you will, of the insurgency.''
    In December 2005, President Bush: ``we're making an quiet, 
steady progress in Iraq.'' Well, if 2005 was a turning point, 
it was definitely a turning point for the worse.
    Over and over again the approach of the Republican 
administration has been to tell us, we need to stay the course, 
it's working out well for the Iraqi people and for the American 
people. That's why I'm so impressed by our Republican colleague 
making the statement this morning that we've got to face 
reality, it is not turning out well. It is a mess.
    Now, I know that some people on this committee have said in 
the past--I'm one person who believes that our involvement in 
Iraq is a noble effort. That was stated by one of the members 
of our committee. They never say, I was wrong. Now we have 
people saying what we need to do is have a reassessment of the 
forces that are needed to control the security in Iraq. Do we 
trust this administration to reassess the number of forces that 
we need to have stability in Iraq? They weren't able to even 
assess the number of troops we needed from the very beginning 
to maintain security in Iraq. And we heard that we ought to be 
blunt with the Iraqi leadership, we're going to give them a 
deadline. And if they can't work out their differences, then 
what? Are we threatening to leave? Well, in the middle of a 
civil war, if you tell people at this deadline you've got to 
work out your problems, the aggrieved party in the civil war 
will not agree to work out the problems because they would like 
to see us leave, and maybe both sides would like to see us 
leave. But we have no leverage because we told them we're going 
to reconstruct the country, and we failed. We told them we're 
going to bring about security, and we failed. We told them that 
they're at a turning point, and they turned the wrong way.
    So I think it is a mistake to say, for those who thought 
this was a noble war, that what we need to do is set some 
deadlines, tell them to work it all out, reassess the number of 
troops, and, well, that will get us past the election, won't 
it? But it's not an answer. What we need is honest talk from 
those who thought this was a noble war. We need them to admit 
that they were wrong. We need to learn that somebody's got to 
be held accountable. This administration has to be held 
accountable; the Republicans and the Congress that supported it 
have to be held accountable. The Democrats that never learned 
after event after event after event should have alerted them to 
the fact that we've made a mistake and we're getting deeper and 
deeper in this quagmire need to admit as well. And after that, 
you hold people responsible, you move forward, and you don't 
hold on to a noble cause until you lose more and more lives for 
that noble cause and face the end of the road. And we already 
may be at the end of the road.
    Thank you, Mr. Chairman. I yield back my time.
    Mr. Shays. Mr. Waxman, thank you.
    The Chair would recognize Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. Thank you for 
holding these hearings, and I'm looking forward to hearing the 
testimony of the witnesses. But I do think that given the fact 
that we're gathered here just a few days after the solemn 5th 
anniversary of the September 11th attacks on our country, it is 
very worth pointing out that the attacks on our country had 
nothing to do with Iraq and had nothing to do with Saddam 
Hussein.
    And I think it's important that we take a look at the 
situation in Afghanistan today because, after all, the attack 
launched by Osama bin Laden and al Qaeda came from there 
because they were given safe haven by the Taliban Government in 
a failed state. And this country was absolutely united in 
taking action against al Qaeda and the Taliban, and the 
international community was united as well. NATO invoked the 
article of the Charter that said an attack on one is an attack 
on all. The United Nations unanimously passed a resolution 
condemning the terrorist attack on the United States and said 
they would join us on the war on terrorism, and here we are 5 
years later with a world divided and a country divided.
    And in Afghanistan, al Qaeda still remains active. Osama 
bin Laden is still at large. We've seen in the last many months 
a resurgence of Taliban activity in southern Afghanistan, and 
despite that resurgence, which has been testified to by General 
Maples, the head of the DIA, and cleared everybody following 
events in southern Afghanistan, despite that, we have actually 
reduced the number of American forces in southern Afghanistan.
    We see today that opium production in Afghanistan is at an 
all-time historic high, and we learned within the last 10 days 
that the Pakistani Government has essentially entered into a 
cease-fire agreement with the Taliban in the northern part of 
Afghanistan and with those in the northwest frontier area, in 
the Waziristan area, that they're backing off.
    And so when I think back to President Bush on the aircraft 
carrier, the USS Lincoln, back in May 2003 declaring mission 
accomplished, it wasn't only that we didn't begin to accomplish 
any kind of mission in Iraq, we haven't come close to 
accomplishing the chief mission that we've set out to do as a 
united country uniting the national community of making sure 
that we totally disabled al Qaeda, because they're still there, 
and they're still planning, and they're still plotting, and we 
have not begun to accomplish the mission, and we haven't 
provided the resources necessary as a Nation to complete the 
job, and we haven't gotten the cooperation of the Pakistanis 
and others to complete the job.
    And instead, we took our eye off the ball. We took our eye 
off the ball. We invaded a country that had absolutely nothing 
to do with the attacks on this country on September 11th, and 
we have created a mess there. We now confirmed what we already 
knew from the Select Senate Intelligence Committee report, a 
bipartisan report: There was no collaboration between al Qaeda 
and Saddam Hussein; in fact, they were ideological opposites. 
Saddam Hussein didn't want any Islamic extremists in Iraq 
upsetting the apple cart, and yet as a result of our activity, 
we have created a mess there, we've opened Pandora's box, and 
now we're left with trying to deal with the mess that's been 
created.
    And as my colleague Mr. Waxman said, we continue to get 
happy talk. We had mission accomplished 1 day. We had the plan 
for victory charts back in November at the Naval Academy--this 
White House seems to really like these charts a lot--and then 
we had Vice President Cheney saying, as Mr. Waxman said, 
``we're in the last throes.''
    I think the Vice President should read the Pentagon report 
that just came out about a week ago. He said the insurgency was 
in the last throes. That report says the insurgency remains, 
``potent and viable.'' And on top of that, we now understand 
from the Pentagon and people above that the insurgency is 
really the lesser of our problems. We now also have an 
incipient civil war. Call it what you want, read today's paper, 
read yesterday's paper, people are being brutally killed. 
They've had their hands cuffed, they've been shot through the 
head, reprisal killing, cycle of violence that continues, and 
yet nobody has been held accountable.
    Stay the course is a slogan, it's not a strategy. More of 
the same. More of the same of what? Now, there are some people 
that have talked about different ways to try to achieve a 
political settlement, which is the only way we're going to be 
able to resolve this issue. I'm not sure there is going to be a 
peaceful political reconciliation, but certainly that should be 
our goal. But this constant talk of just keep doing exactly 
what we're doing is a recipe for disaster as well. We need some 
real thinking.
    And I will close with this, Mr. Chairman: When you have a 
system that rewards those people who constantly got it wrong, 
and yet punishes or marginalizes those in the administration or 
those, frankly, in the professional civil service who got it 
right, whether it was on weapons of mass destruction, whether 
it was on the question of no connections between Saddam Hussein 
and al Qaeda, when you punish or ignore the people who got it 
right, and you reward the people who get it wrong, you're going 
to get a continuation of a failed policy.
    And unfortunately, when the President has said he has all 
the answers, the Republican leadership certainly in Congress 
says, yes, Mr. President, you do have all the answers, and they 
haven't asked all the questions. It's been a blank check, it's 
been a rubber-stamp Congress, and at the very least, if we're 
going to have a national conversation, which the President says 
he wants, we shouldn't say that 1 day and then point fingers at 
people who disagree with the administration on the other day. 
That is just political partisanship. And when the President 
says, let's have a united conversation, and then the Vice 
President otherwise goes out and goes name-calling everybody 
else, that is not a two-way conversation.
    I hope that we will begin to have a two-way conversation, 
but it doesn't appear that we're going to get there. I hope 
people will begin to be held accountable.
    Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. I have no statement at 
this point.
    Mr. Shays. Thank you for being here.
    Mr. Higgins, welcome. You have the floor.
    Mr. Higgins. Thank you, Mr. Chairman. And I appreciate very 
much having had the opportunity to travel with Chairman Shays 
and other Members of Congress to the Middle East in the month 
of August. We spent time in Iraq, we spent time in Lebanon, and 
Israel and in the Sudanese region of Darfur, but.
    I think the most difficult thing about this issue is that 
it's not one-dimensional, it's multidimensional. When you talk 
about Iraq, you also have to talk about Iran, you also have to 
talk about the Israeli-Palestinian stalemate. And I think the 
one, perhaps only, clear conclusion about this is that despite 
all the tough talk, despite all the fake bravado, this 
administration fails to recognize that at the source of this 
problem is our Nation's addiction to oil.
    When you look at the situation in Syria, when you look at 
the situation in Iran, they're not exporting goods to the rest 
of the world, they're exporting hate and intolerance. That 
stands as the basis for the conflict that we are now 
confronting in the Middle East. Places like Iran and Syria, 
they use oil money; they use oil money to insulate themselves 
from real political and economic reform. And unless and until 
this Nation, our Nation, gets serious about developing energy 
independence, we will always have a conflict that we can't 
control and obviously can't control today.
    I look forward to the testimony from this expert panel of 
witnesses, and look forward to working with you, Mr. Chairman, 
moving forward. Thank you.
    Mr. Shays. Thank you.
    We've been joined by Mr. Lynch.
    Welcome. You have the floor, sir.
    Mr. Lynch. Thank you. Good morning, Mr. Chairman.
    Mr. Shays. Thank you for coming.
    Mr. Lynch. First of all, I want to thank Chairman Shays and 
Ranking Member Kucinich for holding this hearing. I'd also like 
to welcome today's panelists and thank you for your willingness 
to help the committee in this work.
    Over the past 2 years, we've witnessed major events in 
Iraq, from the June 2004 transfer of power to the Iraqi Interim 
Government, and to the December 2005 Council of Representatives 
elections, to the May 2006 formation of a new Iraqi Government. 
Regrettably, however, Iraq's political developments have been 
accompanied by heightened sectarian violence. It has changed 
the dynamic in the country where we first faced a resistance 
among the Ba'athist regime under--previously under the control 
of Saddam Hussein, to one in which on a daily basis we hear of 
major conflict between Sunni and Shia tribal leaders within 
Iraq, and it has changed the dynamic of our mission there 
enormously.
    The focus of ethnic and sectarian identity has sharpened as 
a result of Iraq's political process, while nationalism and a 
sense of Iraqi identity have weakened. And accordingly, the 
political process of national reconciliation in Iraq has borne 
an additional military obligation for our brave men and women 
in uniform who are already shouldering enormous burdens of 
battling a terrorist insurgency.
    As noted by the Department of Defense in its August 2006 
quarterly report on Iraq to the Congress, rising sectarian 
strife defines the emerging nature of violence in mid-2006 in 
Iraq. And since the last report, the core conflict in Iraq 
changed into a struggle between Sunni and Shia extremists 
seeking to control key areas in Baghdad, create or protect 
sectarian enclaves, divert economic resources and impose their 
own respective political and religious agendas. That is what is 
going on in Iraq today, and as a result, U.S. forces levels in 
Baghdad have been significantly increased with an additional 
7,000 American troops sent to Baghdad largely for the purpose 
of curbing sectarian violence between Iraqis.
    And, Mr. Chairman, in light of the deterioration in the 
security environment in Iraq, and following my fifth visit to 
the country, I believe that Iraq's strategy is clearly lacking 
in one clear respect: It is the absence of an effective 
mechanism by which to expeditiously and fully transition Iraqi 
Government operations, including political tasks of national 
reconciliation, to the newly elected Iraqi Government.
    I was in Fallujah back in April, and during my visit we got 
hit with a sandstorm, so I spent a couple of days there, stayed 
overnight. And I noticed that when in east Fallujah they had 
problems with water and electricity, it was the U.S. Marines, 
the engineers, who went out there and put the water back on and 
tried to get the electricity back on. Those are functions that 
should be, by now, in the hands of the Iraqi Government. They 
were elected back in December, and yet they still do not handle 
the basic operations, the basic day-to-day duties of 
government.
    And we need to make sure that responsibility is shifted 
over to the Iraqis not only to reduce our own need for 
personnel in those respects, but also because I think it's 
common sense that if their government is elected--and they have 
been elected since December--and yet for the daily duties and 
obligations of government, the Iraqi people continue to look to 
the United States and Coalition forces, eventually they will 
lose credibility. The Iraqi elected government, if they are 
considered a puppet government and they do nothing in the main 
realm of what governments should do, they will lose credibility 
among their own people, and we see some of that happening 
today. Recent reports in the last few days coming directly from 
the Iraqi leadership complain of this point directly.
    And the function of moving that governmental responsibility 
to the Iraqis is a necessary precondition of any United States 
withdrawal. That needs to happen, but no one right now is 
focusing on that specific job, and we need to establish an 
organization that looks at that issue and makes sure that the 
Iraqis do stand up and take responsibility for those basic 
government operations in their own country.
    Mr. Chairman, I welcome our panel's thoughts on the 
suggestions that are put forward, and I look forward to their 
respective positions on the progress of the national 
reconciliation efforts in Iraq.
    I yield back the balance of my time. Thank you.
    Mr. Shays. I thank the gentleman very much.
    Before recognizing our witnesses, I want to just take care 
of some business. I ask unanimous consent that all members of 
the subcommittee be permitted to place an opening statement in 
the record, and that the record remain open for 3 days for that 
purpose. Without objection, so ordered.
    I ask future unanimous consent that all witnesses be 
permitted to include their written statement, in the record. 
Without objection, so ordered.
    We have before us our first panel. And I appreciate our 
panel understanding that it's important for Members to put on 
the record their concerns about this particular hearing and the 
issue in general, and hopefully that will help you address some 
of the questions and responses. And I say that as well to our 
second panel, we are clearly divided on a very important issue 
facing our country and the world.
    Ambassador David Satterfield is the senior advisor on Iraq 
to the Secretary of State. He's the former Deputy Chief of 
Mission from Baghdad. And I will just say that in my 
interaction with him in Iraq, I found him to be extraordinarily 
candid, obviously very aware of the issues that our country 
faces, and someone that I have just unbelievable respect for. 
And I thank him for his service in Iraq and his service now.
    Mr. James Bever is the Deputy Assistant Administrator, Near 
East and Asia, U.S. Agency for International Development. I 
understand you've been assigned to this position in the last 
few months. You do not have a statement for us, but you're here 
to respond to questions, and I appreciate that very much.
    I will say, before swearing the witnesses in, the vote on 
authorized use of U.S. Air Force--Armed Forces against Iraq 
passed 296 to 133, with 3 not voting. Mr. Platts voted for this 
resolution, I did, Mr. Lynch did, and Mr. Waxman. Mr. Kucinich 
voted against it, and Mr. Duncan voted against it, and two of 
the other Members here today were not here when we voted on 
that resolution.
    Ambassador, if you will stand up, I will swear you in.
    Mr. Kucinich. Would the Chair yield to a question?
    Mr. Shays. Let me just swear the witnesses in. Excuse me, 
Mr. Bever as well. As you know, we swear in all the witnesses.
    [Witnesses sworn.]
    Mr. Shays. I note for the record that our witnesses have 
responded in the affirmative.
    Was there a question?
    Mr. Kucinich. Yeah. I always appreciate the Chair bringing 
information to the committee to illuminate us in the context of 
hearings, but could I inquire of the Chair what was the purpose 
of citing my vote against that resolution?
    Mr. Shays. The purpose was to help enlighten our witnesses 
that some of the Members who have spoken for or against this 
war, in fact, voted for the war. I just wanted them to realize 
that.
    Mr. Waxman. Mr. Chairman, since you mentioned my name, I 
did vote for that resolution because I was concerned about 
nuclear weapons of mass destruction. I didn't know it was all a 
fantasy of this administration's.
    I also hoped that we would do better, and then found that 
reconstruction was just lining of pockets of Halliburton and 
the contractors. I saw that the Iraqi people weren't taking 
control of things. I saw that the civil war was coming. I saw 
the disaster year after year after year. It was as late as June 
13, 2006, that I said, as you did, I'm one person this on this 
committee who believes that our investment in Iraq is a noble 
effort. I don't believe it was a noble effort, and I thought--
my vote was a vote that I would certainly not have cast had we 
known the facts, and I wouldn't vote that way today. And I do 
not think it's a noble effort.
    I don't know why you decided to cite something that took 
place so long ago when we knew so little of what we know now.
    Mr. Shays. Just in response to your comments, Mr. Waxman, 
since I was the gentleman who said it was a noble effort, I 
felt that your comments were directed at me without using my 
name, and then you talked about people being honest. And so I 
would like to put for the record that I voted for this war. I 
believe it is an absolutely noble effort with all my heart and 
soul. I believe it would be a catastrophe if we were to leave 
prematurely. I believe the Iraqi--the terrorists, Islamist 
terrorists, would win. I believe there would be an all-out 
civil war, and I believe Iran would be the dominant force, and 
that's what I believe with regard to that.
    And I was noting the Member's attack against me, and I did 
want to make sure that my name is associated with that noble 
cause.
    Ambassador Satterfield, you have the floor.

 STATEMENT OF DAVID SATTERFIELD, SENIOR ADVISOR ON IRAQ TO THE 
                       SECRETARY OF STATE

    Ambassador Satterfield. Thank you, Mr. Chairman.
    Mr. Chairman, members of the committee, I appreciate the 
opportunity----
    Mr. Shays. Let me explain. We do 5 minutes. We will roll 
over another 5 minutes. Since you're the only one with 
testimony, I don't want you to feel rushed to make whatever 
statement you want to make. Thank you.
    Ambassador Satterfield. Thank you.
    Mr. Chairman, members of the committee, I do appreciate the 
opportunity to appear before you today to testify on 
developments in Iraq, especially on the urgent critical need 
for reconciliation among Iraq's sectarian groups. And I 
appreciate the opportunity to enter into the record my prepared 
remarks. I would like to make some brief summary comments 
before taking questions.
    The Iraqi people, as well as Iraqi and Coalition forces, 
have suffered through a violent summer. While the insurgency 
and al Qaeda terror remain challenges, lethal challenges, 
sustained sectarian violence is perhaps the greatest threat 
today to a stable, unified, prosperous Iraq. If sectarian 
violence cannot be demonstrably, tangibly reduced and 
sustained, that reduction over the next several months, an 
Iraqi Government that represents all of its people, is a 
partner against terror, and is at peace both at home and with 
its neighbors will be difficult, if not impossible, to achieve.
    The challenges facing the citizens in the Government of 
Iraq are serious, and they are very difficult, but, I believe, 
still surmountable. However, it will take a concerted urgent 
effort to achieve success. Iraq's future is dependent upon the 
performance and commitment over a sustained period of time of 
three basic pillars of actors? first and foremost, the Iraqi 
Government itself and the Iraqi people; the Coalition; and the 
international community, in particular Iraq's neighbors. If any 
one of these pillars should fail to fulfill its 
responsibilities and to sustain those responsibilities, each 
will suffer the consequences of a destabilized and violent 
Iraq.
    For the Iraqis themselves, failure means the reality of a 
civil conflict that would lead to loss of life, disintegration 
of a national government, division of the country along 
sectarian lines.
    For the United States, for the Coalition, failure means the 
possibility that Iraq would either become a permanent haven for 
terrorists, a satellite of Iranian influence, or both. Either 
outcome would pose a direct threat to American national 
interests and to the security of the American people.
    For international actors, especially for Iraq's neighbors 
in the region, failure would mean a further destabilized Middle 
East that could disrupt national economies, provoke refugee 
flows, and, in a worst-case scenario, lead to regional 
conflict. To avoid these specters of failure, all must do their 
part.
    The U.S. Government, the Coalition have already begun to 
make progress, and progress on a changed basis in several 
critical areas. We are not engaged in business as usual in 
Iraq, all is not the same. We have adapted and we will continue 
to adapt to changing dynamics on the ground, to our assessment, 
which evolves with the nature of the threat and the manner of 
dealing with that threat most effectively. We have responded to 
criticism from the Congress and from the Special Inspector 
General for Iraq Reconstruction to improve performance.
    On security. Multinational and Iraqi security forces 
reacted to the deteriorating security situation in Baghdad, 
which many of the Members present have commented on, and have 
launched Operation Together Forward, a strategy to clear 
Baghdad of armed elements, terrorists, criminal groups and 
insurgents one key neighborhood at a time.
    After clearing armed groups from these neighborhoods, 
they're clearing the streets, they're restoring basic services. 
The object here is to provide a greater sense of normalcy for 
Baghdad residents in their daily lives.
    Since August 7, almost 50,000 buildings have been cleared, 
hundreds of weapons seized, dozens of militants, armed elements 
detained, and we are seeing results. Over the first 5 weeks of 
this operation, there has been a significant drop in execution-
style sectarian killings in Baghdad city. Much work remains, 
but we appear to be--we, meaning the Iraqi forces in the lead 
on the streets, with support from Coalition elements--turning 
around the trend line of violence that followed the bombing of 
the Samarra Mosque in February.
    I do not want to overstate success in Baghdad. This is an 
ongoing proposition, and we assess on a daily basis what is 
being done and what needs to be done, but the trend has been 
positive.
    On reconstruction and good governance, critical elements 
both to putting Iraq on a sustainable path, a stable future, we 
have shifted the focus of our contracting efforts from foreign 
companies to Iraqi contractors. We're helping to support Iraqi 
businesses, to create Iraqi jobs, and not just make-work jobs, 
but sustainable positions. Both of these are necessary for the 
economic future of Iraq, and they're both necessary to provide 
a state for those who want to oppose violence, for those who 
see their future not in struggle, not in conflict, but in 
peaceful and normal lives.
    We're working jointly in an unprecedented fashion, in 
military civilian teams, to stand up and to run provincial 
reconstruction efforts throughout Iraq as well as in the 
capital. These are helping to rebuild critical infrastructure, 
to train Iraqi officials in democratic best practices so they 
can indeed take over the lead, because the lead is what must be 
handed to Iraqis.
    We already have seven provincial reconstruction teams up 
and running. Two more are operational and will launch 
officially very shortly.
    On essential services. We have rehabilitated or maintained 
more than twice the electrical capacity now on line in Iraq. We 
have improved access to fresh water and to sewage treatment for 
over 5 million Iraqis. And while our focus in the past was on 
building national capacity in these services, we have moved 
forward. We are now focusing on what we call the next mile. It 
is connecting the capacity which exists in the system to homes, 
to the user when they turn on the light switch or turn on the 
tap.
    Our goal is simple. We want Iraqis, particularly in 
Baghdad, to be able to see, feel and touch the accomplishments 
that U.S. taxpayer money and the effort of committed men and 
women have brought in their country. We're making progress in 
that direction.
    Finally, on oil production. We have worked hard, and we 
have successfully increased Iraq's crude output above prewar 
levels from an average of 2 million barrels a day to 2.2 
million barrel as day, with a significant increase in that 
latter figure by the end of the year as now wells come on line 
in the south.
    Now, these are all positive developments, but they cannot 
exist or be assessed in a vacuum. To have lasting impact, to 
have strategic impact, the Iraqi Government and the 
international community must reinforce them by addressing other 
critical areas of concern, and there is no such area that 
requires more immediate attention in Iraq right now than 
reconciliation. On this issue the United States and the 
Coalition can only do so much. Only the Iraqis themselves, 
their elected leaders, can ultimately resolve the differences 
that currently divide them, and the clock is very much ticking.
    We are pressing the government of Prime Minister Maliki to 
move now to match excellent rhetoric with real action. Prime 
Minister Maliki made a positive step forward in June when he 
presented a national reconciliation and dialog project to the 
Council of Representatives, but the Iraqi Government now must 
move forward to implement this swiftly and comprehensively. As 
Iraq's partner, we stand willing to help in any way we can to 
advance this process, and we understand the stakes, but only 
the Iraqis can make the difficult decisions and compromises 
that will guarantee for them and for their people a secure, 
peaceful future.
    Success in Iraq will not be possible unless all 
extragovernmental armed groups, terrorists and insurgents are 
demobilized, and Iraq's main sectarian groups, Shia, Sunni and 
Kurd, resolve their differences peacefully and in a manner that 
supports a democratic process.
    I'd like to say, Mr. Chairman, a word about the important 
role of the international community at this point.
    This month the United Nations and the Iraqi Government are 
launching an International Compact for Iraq that is loosely 
based on the successful International Compact for Afghanistan 
that was concluded in January of this year. The goal of the 
compact is for the Iraqi Government to demonstrate to the 
international community, to the region, to the world and to its 
own people its commitment to implementing needed social, 
political and economic reforms, to move forward on security, to 
promote private sector investment and public sector 
development. The United Nations will be holding a compact 
meeting in New York on September 18th, less than a week from 
now, after a very successful preparatory meeting this past week 
in Abu Dhabi.
    Now, as the Iraqis reach out to the international community 
and to their neighbors, it's critical that the international 
community and the region reach back. Now, this is especially 
true for Iraq's neighbors, who have for too long sat on the 
fence and complained about conditions in Iraq without doing 
anything about them. We share the concerns expressed by many of 
our friends in the region about Iranian influence, about the 
growth of Sunni Islamic terror, al Qaeda in Iraq, but the way 
to deal with this phenomenon is not to isolate and exclude 
Iraq, it is to recognize that a new Iraq exists, to embrace 
that change, and to work actively with us, with the Coalition, 
to support a different, better, stable future for Iraq. It is 
time for the region to invest, as we have, in Iraq's future.
    Mr. Chairman, President Bush, Secretary Rice, Ambassador 
Khalilzad, everyone in this administration, is committed to 
completing the mission in Iraq. If all of us, the United 
States, our Coalition partners, the Iraqi Government and the 
international community, do our part, we can and I believe we 
will succeed. And I would be happy to answer any questions the 
committee may have. Thank you.
    Mr. Shays. I thank the gentleman very much.
    [The prepared statement of Ambassador Satterfield follows:]
    [GRAPHIC] [TIFF OMITTED] 38581.007
    
    [GRAPHIC] [TIFF OMITTED] 38581.008
    
    [GRAPHIC] [TIFF OMITTED] 38581.009
    
    [GRAPHIC] [TIFF OMITTED] 38581.010
    
    [GRAPHIC] [TIFF OMITTED] 38581.011
    
    [GRAPHIC] [TIFF OMITTED] 38581.012
    
    [GRAPHIC] [TIFF OMITTED] 38581.013
    
    [GRAPHIC] [TIFF OMITTED] 38581.014
    
    [GRAPHIC] [TIFF OMITTED] 38581.015
    
    Mr. Shays. Considering we have so many of my Democratic 
colleagues, I think I will start with them first, and then I'll 
go to Mr. Duncan.
    Mr. Kucinich, you have the floor first.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    Mr. Shays. And what we are going to do--we are going to do 
10 minutes. We'll do 5 minutes. Then we'll roll over for 
another 5 minutes. That way I think we can really get into some 
issues.
    Mr. Kucinich. Thank you very much, Mr. Chairman. 
Ambassador, thank you for being here.
    A recent report by a marine intelligence official in Iraq 
publicized in the Washington Post claims that this situation at 
Anbar Province is almost hopeless. It says there's nothing the 
United States can do to improve the political and social 
situation there. You read the report?
    Ambassador Satterfield. Yes.
    Mr. Kucinich. Do you agree or disagree with its findings?
    Ambassador Satterfield. We certainly agree.
    Mr. Kucinich. I can't hear you.
    Ambassador Satterfield. We certainly agree. The situation 
in Anbar Province is, indeed, very serious, and we agree that 
major measures need to be taken to address the social, the 
political situation there. We disagree that the situation is 
hopeless, and we disagree that it is not possible to address 
the underlying factors which make the violence in Anbar so 
untrackable.
    Mr. Kucinich. Have you read any State Department reports 
that draw a similar conclusion?
    Ambassador Satterfield. Well, Mr. Kucinich, we have many, 
many reports from our staff, from military staff in Anbar 
Province. All of them confirm the difficult nature of the 
situation there, and it's a situation which through a 
combination of means outreached to the Sunni community, not 
just in Anbar Province, but the exile community outside Anbar 
Province in other countries; extension of government services 
as best as can be done to provide a better stake for the 
residents of that area; but above all----
    Mr. Kucinich. Mr. Ambassador, thank you. I want to ask you, 
if you have read such State Department reports, are you willing 
to provide them to this committee?
    Ambassador Satterfield. That is an issue I will take back 
to the Department, Mr. Kucinich.
    Mr. Kucinich. If you've read such reports, when is the 
first time that you read a report saying that the situation at 
Anbar Province had deteriorated sharply?
    Ambassador Satterfield. There are consistent reporting. 
There is consistent reporting from Anbar Province underscoring 
the serious nature of both violence, political situation, 
essential services provision in that province. It is not any 
one report or any one dramatic event. Anbar is a very, very 
difficult area. It is the most violent province in Iraq. It has 
been the most violent province since 2004.
    Mr. Kucinich. Is the State Department recommending to the 
President that we send more troops there?
    Ambassador Satterfield. That is not the role of the State 
Department.
    Mr. Kucinich. Does the State Department feel that there is 
a military solution in Anbar Province?
    Ambassador Satterfield. The U.S. Government, the mission in 
Baghdad, civilian and military, is united in a strategy of 
approaching the violence in Anbar, the political situation in 
Anbar as elsewhere in Iraq on a basis of both security steps 
and political and assistance steps.
    Mr. Kucinich. Mr. Ambassador, to what do you attribute the 
sharp increase in extrajudicial killings in the Baghdad area?
    Ambassador Satterfield. The al-Sadr Hamas bombing in 
February was the beginning of a shift in tactics by al Qaeda 
and its followers in Iraq from broadbrush attacks against 
civilians to a specific targeting of Shia holy sites, Shia 
communities. The object, as we know from Zarqawi's own letters, 
was to prompt Shia responses, Shia violence against Sunnis, 
and, in his distorted mind, to then provoke a civil war which 
he believed would be the prompt for the creation of a Sunni 
caliphate in Iraq.
    Mr. Kucinich. Are there State Department reports of rising 
al Qaeda influence in Anbar Province?
    Ambassador Satterfield. Again, sir, there is a consistent 
problem in Anbar Province not just with the insurgency, but 
also with the presence of al Qaeda elements.
    Mr. Kucinich. And when were these reports first written?
    Ambassador Satterfield. These reports have been present for 
several years.
    Mr. Kucinich. And what is the position of the State 
Department with respect to reports of men in army uniforms 
arriving in villages, seizing individuals, and then those 
individuals turn up handcuffed and blindfolded and shot to 
death?
    Ambassador Satterfield. There is a consistent occurrence of 
individuals in the uniform, the garb of Iraqi security forces, 
usually police but sometimes army, operating under the color of 
authority, taking prisoners, executing individuals. It is for 
that----
    Mr. Kucinich. Are you saying people connected to the Iraqi 
Ministry----
    Ambassador Satterfield. No, operating under color of 
authority.
    Mr. Kucinich. What does that mean?
    Ambassador Satterfield. That means purporting the----
    Mr. Kucinich. Who is killing all these people?
    Ambassador Satterfield. Killing is taking place at the 
hands of insurgents. Killing is taking place at the hands of al 
Qaeda terrorists. Killing is taking place at the hands of 
extragovernmental armed groups that have a sectarian color to 
them and a criminal color to them.
    Mr. Kucinich. You have victims of extrajudicial killings. 
There seems to be some systematic approach here--victims' hands 
tied or handcuffed, blindfolded, shot in the head, people 
showing up in military uniforms, gathering the--gathering 
people before they take them away, people in white Toyota Land 
Cruisers with police markings.
    What is the position of the State Department on who is 
responsible for these murders.
    Ambassador Satterfield. Mr. Kucinich, there are two sets of 
issues here. One is dealing with the critical need for reform 
within Iraq's Ministry of Interior, within its police services 
to ensure that none of those security officers are operating in 
a manner that is not national, appropriate, and it contributes 
to reconciliation.
    The second issue is the presence of armed gangs, armed 
groups, some with a militia identity, others with a criminal 
identity, who are conducting these targeted executions and 
killings. Both need ``addressal.''
    Mr. Kucinich. Are you familiar with reports that kidnappers 
have appeared with expensive foreign equipment issued to 
security forces such as the Toyota Land Cruisers, Glock 0.9-
millimeter pistols? Have you heard those reports?
    Ambassador Satterfield. We're certainly aware of those 
reports, sir.
    Mr. Kucinich. And what is the relationship now between the 
State Department and the Iraq Ministry of--Interior Ministry?
    Ambassador Satterfield. Well, the mission in Iraq, civilian 
and military, is working with the Iraqi Government to undertake 
reforms of the Ministry of Interior, both its leadership as 
well as the police services under the Ministry's control.
    Mr. Kucinich. What responsibility should the United States 
have with respect to a Ministry of Interior of a government 
that we helped set up, working, apparently, to provide 
circumstances that result in extrajudicial killings?
    Ambassador Satterfield. Sir, our mission is to help the 
Iraqis set up credible national institutions and credible means 
institutions that work and are seen as working on behalf of all 
Iraqis that are not engaged in armed activities outside 
official government sanction.
    Mr. Kucinich. Has the State Department conducted an 
investigation of who is responsible for the extrajudicial 
killings?
    Ambassador Satterfield. The U.S. Government, all of its 
entities, civilian and military, do, indeed, examine this issue 
on a continuing basis and have done so for quite some time, and 
respond to the results of that investigation both through 
efforts such as the Baghdad security plan, our press for 
reconciliation efforts, as well as addressal of the specific 
need for reform within the Ministry of Interior.
    Mr. Kucinich. So who's doing the killings? Are these people 
that are killing with the United States looking the other way?
    Ambassador Satterfield. No, they are not.
    Mr. Kucinich, as I noted previously, the killing is being 
done by a number of groups, some who are, indeed, part of Iraqi 
security forces, and that's something that must be stopped. 
Others are operating wholly outside any official color or 
sanction. They are insurgents. They are terrorists. They are 
sectarian groups, militias and gangs.
    Mr. Kucinich. Well, you're pretty specific about that. Do 
you have incident-by-incident reports that would indicate 
exactly who has been doing the kidnapping and the executions 
and the extrajudicial killings?
    Ambassador Satterfield. There is often no such precise, 
instant-by-instant accounting, but there are patterns of 
behavior, sir, which we do, indeed, follow which allows us to 
give a best estimate of who is responsible for patterns of 
events.
    Mr. Kucinich. Well, we're learning now there were 162 
bodies found last night. Maybe 100 people died in a day. We're 
talking about national reconciliation. What is the United 
States of America doing with respect to trying to stop the 
extrajudicial killings?
    Ambassador Satterfield. Sir, we have committed additional 
forces to Iraq. Iraqi Government forces have been added to the 
capital. We, along with the Iraqis, have devised a new security 
plan which evolves continuously, and it has achieved over the 
month of August significant results. We are working on reform 
of the Iraqi security forces, particularly the Ministry of 
Interior, and we are promoting a reconciliation process from 
which must come a DDR process, disarmament, mobilization and 
reintegration that ends militia activity.
    Mr. Kucinich. How many Ministry of Interior officials have 
been held accountable for their role or support of these 
extrajudicial killings and are militias?
    Ambassador Satterfield. Sir, one of the issues which we 
have urged Prime Minister Maliki to focus upon is the critical 
need to show that there are consequences, real consequences, 
through the judicial process for violations of human rights, 
for actions that involve torture, for corruption, large and 
small. Consequences need to be demonstrated.
    Establishing the rule of law in Iraq, starting at the level 
of government officials, is critical. This is a difficult area, 
and I will not mince words on this point. It is hard to move 
this forward. Prime Minister Maliki has made the right 
statements. He has pledged his support for efforts against 
officials involved in violence, involved in corruption, but you 
need two things here, sir. You need a government that provides 
strong political backing for rule of law, for the fight against 
corruption, and you need a judiciary which is able to stand up 
free of intimidation, free of threat, and carry forward a fair 
and transparent process of bringing these individuals to 
justice, both present issues in Iraq which we are addressing.
    Mr. Shays. I thank the gentleman.
    Mr. Kucinich. Mr. Chairman.
    Mr. Shays. Yes, sir.
    Mr. Kucinich. Are we going to have another round here?
    Mr. Shays. No, we won't have another round here because we 
have to be out by 2. I can do--let me just explain. We can do 5 
minutes and then do a certain amount, or we can do 10 minutes. 
Now, I just need 10 minutes, but do you just have a quick 
followup?
    Mr. Kucinich. Well, I just want the record to show that the 
Ambassador has essentially said that no one's right now being 
held accountable. There's nobody being charged with anything, 
and you've got all these extrajudicial killings going on and 
tied to the Ministry of the Interior, and we're supporting 
them. Hello?
    Mr. Shays. I thank the gentleman.
    At this time, Mr. Duncan has the floor.
    Mr. Duncan. Thank you, Mr. Chairman.
    Mr. Ambassador, you know from my opening statement and also 
from the vote that Chairman Shays called out that I have 
opposed this war from the start, and I feel it was a very 
unnecessary war, and I think it will go down in the history as 
one of the biggest foreign policy mistakes in this country's 
history. However, I will say this: I have many good friends 
here and at home that supported this war and still support it, 
and certainly I think good people can disagree in respectful 
ways. And I certainly have no disrespect for you or people like 
you because I think that you're just trying to do the best you 
can in a very difficult situation. But having said that, I 
just--really just have two questions, and they boil down to 
these: How much and how long? And I'll make just a few 
statements to explain those questions.
    When they found out that I was leaning against the war 
before we cast our original vote, as Chairman Shays just 
mentioned, about 4 days or so before that vote in October 2002, 
I was called to the White House for a briefing by Secretary 
Rice and George Tenet and John McLaughlin, and I asked--one of 
the questions that I asked was Lawrence Lindsey had just lost 
his job at the White House because he said the war would cost 
$100 to $200 billion, and I asked Secretary Rice in that 
meeting--there were six members there. I said, how much--I 
asked her about that estimate by Lawrence Lindsey, and she 
said, oh, no. It wouldn't cost anywhere close to that much, $50 
or $60 billion at the most.
    Well, now most estimates are higher, it's cost $300 billion 
or more, and I think most Americans, while they don't want, you 
know, Iraq to pull out or some sort of specific exit date, they 
would like to see us wind this down at some point. Yet we're 
going in the other direction. We recently increased our troop 
levels by 13,000 to, I think, 140,000 roughly is what--the 
figure that I read.
    This is a Nation that Newsweek Magazine said in the year 
before the war had a gross domestic product, the GDP, of $65 
billion total, so I know they love all of our money coming in 
there. And at this same committee a year and a half or 2 years 
ago, we had David Walker, who is the head of the GAO. I'm sure 
you know him. He was inspector general of the Defense 
Department at that time. He had issued a report saying that 
35--that he had found $35 billion that had been just totally 
misspent in Iraq and another $9 billion that couldn't be 
accounted for at all, $44 billion.
    And then just about 3 weeks ago I led a congressional 
delegation to Europe, and in one of the countries--and I won't 
say the man's name because I don't want to get him in trouble--
but one of the highest-ranking Foreign Service officers that we 
met said that--in one of the countries said that he had spent--
that he had--not too long before we finished a year in Iraq, 
and he said that he saw SUVs just stuffed full of cash with 
barely room for the driver, and that he just saw horrendous 
waste.
    And so I'm wondering, sir, how much? I've read a report. I 
don't have it in front of me. Joseph Stiglitz, I think his name 
is, and another Nobel Prize-winning economist say the ultimate 
costs of this war will be well over $1 trillion counting what 
we--what we have spent, what we will spend and the medical 
costs of the troops and so forth. And then a couple of years 
ago, before the Armed Services Committee, Secretary Wolfowitz 
said we would have to be there at least 10 years.
    So what I'm wondering about is how much do you think this 
war is going to cost us in the end, how much; and then, since 
things seem to be getting worse rather than better, according 
to the Pentagon report and other reports, what do you think of 
that original estimate from a couple of years ago that 
Secretary Wolfowitz made that we would have to be there at 
least 10 years.
    Ambassador Satterfield. Well, Congressman, the cost of the 
war has been considerable. I am not able at this point to look 
back on what has been said, what has been done or the basis for 
those assessments. My role is to focus on where we are today 
and how best to move forward to a success, a success which, for 
Americans as well as for Iraqis and for the world, ensures that 
the cost of Iraq, the real cost of Iraq, is not just something 
that we measure in dollars or even in the tragic loss of life 
of American citizens there, but rather the cost in terms of 
both the terror, the cost in terms of instability in the region 
and elsewhere, and the cost in terms of our ability to promote 
a process of democratization not just in the Middle East, but 
elsewhere around the world. And that could be a very high cost, 
indeed, if there is not a success in Iraq.
    With respect to lessons learned, we have learned lessons, 
sharp lessons, from the experience of the Coalition Provisional 
Authority in terms of accountability. There has been excellent 
work done and continuing to be done in Iraq by Stu Bowen, the 
Office of the Special Inspector General for Reconstruction, and 
we have taken to heart the steps that need to be taken to 
ensure that there is not waste or mismanagement of U.S. funds.
    Well, when you speak of cost, Congressman, the cost has to 
be viewed in the broadest perspective. What is the price for a 
failure in Iraq? Now, transition to Iraqi lead is critical. As 
I underscored in my remarks, as the Secretary and the President 
and Ambassador Khalilzad have said, the Iraqis have to take 
over here. They have to take over from the standpoint of 
security. They have to take over from the standpoint of 
governance, establishing a rule of law, moving forward their 
own reconciliation deal that provides a new national compact, a 
basis for living in the country, and we're pressing them on 
these points.
    On security we have seen very significant progress made in 
terms of the standup of Iraqi forces. This is not just a 
notional concept. It's not just rhetoric on our or the Iraqi 
parts. Iraqi forces are in the lead in many parts of the 
country. They have made significant command transfers over the 
course of the last 60 days, some within the last 30 days. That 
process is going to continue.
    Now, Baghdad is a special focus. Because of the phenomenon 
of sectarian violence, because it is the center of the country 
and the heart of its national life, it's essential that success 
there come as quickly as possible, and it is why both we and 
Iraqis have committed additional elements to that fight. But I 
would note, sir, the ability that we have--the Coalition has--
and the Iraqis have to move significant elements from elsewhere 
in Iraq to Baghdad is a sign that, in most parts of the 
country, the security situation has significantly improved, 
that those elements can be shifted to areas where the security 
situation remains threatening.
    Mr. Duncan. Well, thank you very much. I'll just simply 
close and yield back the balance of my time to the chairman by 
saying--after I say this, that, you know, I read a few months 
ago a column by Ann McFetters, a columnist for the Scripps 
Howard news chain, in which she said we're headed for a 
financial tsunami when the baby boomers start retiring in large 
numbers in 2008.
    So I just don't see how this Nation can afford to keep 
spending $100 billion or more every year in Iraq and do all of 
the things that we've promised, and I also don't see how a 
person can call themselves a fiscal conservative and not be 
horrified when they hear David Walker say that $35 billion was 
misspent in Iraq, and $9 billion--$9 billion with a B--had just 
been totally lost. And when we hear these rip-offs by all these 
contractors, if you're a fiscal conservative, it seems to me 
you have to be horrified by that, and at some point in the very 
near future, we are going to have to see some decreases in 
these costs because, with a national debt of $8.5 trillion, we 
just simply can't afford it.
    I yield the balance of my time to the chairman.
    Mr. Shays. Thank you.
    The gentleman just has 2 minutes left, and I'll use those 
times just to set up for questions I'll do later. But 
Ambassador, you are a career diplomat; is that true.
    Ambassador Satterfield. That is correct, Mr. Chairman.
    Mr. Shays. And you clearly didn't vote to send us into 
Iraq, Members of Congress did, and you're being tasked with the 
effort to help us and the Iraqis win this effort. Let me ask 
you, how long were you in Iraq as the Deputy?
    Ambassador Satterfield. Fifteen months, sir.
    Mr. Shays. Yeah, and have you been there--when did you go 
in, and when did you leave?
    Ambassador Satterfield. I arrived in late spring of last 
year. I left a little over a month ago.
    Mr. Shays. So you basically were there a year after the 
power had been transferred to the Iraqis in June 2004.
    I'm going to want you to react to what is motivating this 
whole series of hearings, but I want to say to you, I believe 
in the beginning we made huge mistakes. We disbanded their 
army, their police and their border patrol. We allowed the 
looting. We were part of a de-Baathification that basically 
took too many Iraqis out of the opportunity to be part of this 
new government. I thought we turned it around, but having now 
dug a deep hole when we transferred power in June 2004--and 
that was a deadline, and a lot of the critics of the war were 
angry when we transferred power.
    The bottom line is I then saw tremendous success when--for 
18 months when we saw an election to create a transitional 
government. A transitional government was elected. They created 
the constitutional convention. The constitutional convention 
created the Constitution. All of these were deadlines, and then 
you had the election, allowed from the case of the Constitution 
an election of the new government, and my point will be when I 
start to question is what has happened since January of this 
year to now, and what do we do to get the Iraqi politicians to 
do all of the things they need to do on reconciliation, the 
Constitution and provisional election?
    So that's where I'm going to be headed, but my time has run 
out now. Let me go to Mr. Waxman.
    Mr. Waxman, you have 15--10 minutes.
    Mr. Waxman. Thank you, Mr. Chairman.
    Ambassador Satterfield, I am familiar with your career in 
the Foreign Service and your service to our country. You are an 
expert in the Middle East. You've served in Lebanon and Jeddah, 
and you've been in Iraq. You've been involved in the Arab-
Israeli issues, so you're very familiar with that part of the 
world and fully cognizant of the consequences of our actions in 
that part of the world.
    Repeatedly in your testimony, which I very much appreciate, 
it was very sobering, you repeatedly say we've got to hold the 
Iraqi Government accountable. They have to be accountable for 
torture and violation of human rights. They've got to be 
accountable for national reconciliation. They've got to be 
accountable for security.
    My question is shouldn't we be holding the U.S. Government 
accountable as well and the administration that has brought us 
to this point?
    Things have not gone the way we were told they would go 
when we engaged in this whole so-called noble cause. We were 
told it was going to be easy; we were going to be greeted as 
liberators; that we were going to create a democracy; that it's 
going to be a shining star on the hill; that we would produce 
further democracies throughout the Middle East.
    Isn't it the case that we have strengthened Iran's hand and 
the role of the Shiites in what could be something of a civil 
war throughout the Arab and Muslim world.
    Ambassador Satterfield. Congressman, I do not believe that 
our actions in Iraq or elsewhere in the region have contributed 
to a strengthening of Iran's hand, and we specifically reject 
the concept that there is some threatening Shia, our core Shia 
crescent, that extends throughout the region that links all the 
Shia populations of Lebanon, of Syria, of Iraq, the Gulf in 
some unified conspiracy which has nefarious ends.
    Mr. Waxman. Well, let me just--I appreciate that answer, 
but it seems to me hard to believe that if we are successful in 
our mission as we now have redefined it, that we're going to 
have anything other than a government in Iraq that is going to 
be very dependent on Iran. And the party that has now taken 
power in Iraq is a religious Shiite party that has strong ties 
to Iran; is that true?
    Ambassador Satterfield. Sir, the majority of Iraq's 
population is Shia. In democratic, free and fair elections, 
representatives, the majority of whom are Shia, were chosen, 
and the complex of the government, including the sectarian 
identity of the Prime Minister, reflect that democratic 
outcome. But we do not believe, very strongly do not believe, 
that the Shia of Iraq are Iranian, that their allegiance is 
anything other than to Iraq, or that they are not committed to 
the concept of nationhood as we would see the best future for 
Iraq or other countries in the region.
    Mr. Waxman. While I appreciate that answer, I would hope 
you're right, but I'm afraid that what you're expressing is 
wishful thinking, and what we've had consistently in this noble 
experiment, this noble cause, is wishful thinking that turned 
out not to be accurate.
    I don't know at what point you hold people accountable when 
we found out there were no weapons of mass destruction, there 
was no tie between Iraq and al Qaeda, that the people didn't 
greet us as liberators, that we needed more troops, and we made 
serious mistakes in not getting enough. In fact, we penalized 
the Americans who gave us warnings, like General Shinseki who 
said we needed more troops, or others in the administration who 
said it was going to cost more, and we've gone step by step by 
step, and every step of the way we are told that we're at a 
turning point, that things are really going to get better, and 
we're not at a very good point.
    I don't know if it was just hopelessly naive talk, but 
would you agree that the insurgency was far from dead in 2005 
when we were told that they're in their last throes, and would 
you say now that, in fact, the insurgency is far from dead at 
this time.
    Ambassador Satterfield. The insurgency is a very 
significant element in Iraq.
    Mr. Waxman. So we were told that the insurgency was going 
to be taken care of, and now we find ourselves hoping this 
government--and trying to help this government in Iraq--can 
deal with the insurgency.
    I think we need to ask ourselves when is a noble effort a 
mistake. In 2000, 672 American soldiers have died in Iraq; 
19,000, close to 20,000, have been wounded. We spent over $300 
billion in taxpayers' funds, yet the violence is spiraling out 
of control. Iraq is in the midst of a civil war, and Iran is 
far more powerful in the Middle East than it was 3 years ago.
    I think it's time for the administration to accept 
responsibility for this debacle, and I think the American 
people want accountability.
    Mr. Chairman, I didn't attack you. I did criticize your 
views, and I don't want you to take it personally. We have a 
difference of opinion on this issue. I don't think you said all 
the things this administration has said, but when you tell us 
that, with all your heart and your soul, you believe it was--it 
is a noble cause, that does not impress me, because all you're 
telling me is you're sincere. And I believe that President Bush 
has been sincere, but I think this war has been wrong, and the 
estimates have been wrong, and the happy assessments and the 
wishful thinking has turned out not to be accurate, and now 
we're in the very difficult situation that Ambassador 
Satterfield has described for us.
    You said, Ambassador, that we need to complete our mission 
in Iraq. Is our mission the same mission that we hoped it would 
be in the very beginning, that this would be a democracy, that 
it would be an example to the rest of the world, or do we just 
hope now our mission is to have this government stable enough 
to take over from us.
    Ambassador Satterfield. Sir, our mission is a stable, 
democratic, prosperous Iraq.
    Mr. Waxman. Do you think that some of the insurgency and 
internal strife is due to the fact that the Iraqi people don't 
respect this government because they think we've set it up?
    Ambassador Satterfield. No, I do not believe, sir, that is 
an element, but it is quite true that any government, including 
the government of Prime Minister Maliki, that is not able to 
deliver on basic commitments in terms of provision of essential 
services, identification with a national program, including the 
security services composition and behavior, is not a government 
which is going to be able to succeed, and no government that 
does not establish or significantly strengthen the rule of law 
can succeed.
    Mr. Waxman. Well, I think you're absolutely correct in that 
statement, but they looked at the United States as a country 
that occupied Iraq, caused a war against the regime in Iraq, 
brought it down, and then tried to occupy the country, and we 
were not successful in any of those activities either. We 
didn't provide security. We didn't provide reconstruction. We 
didn't provide any credible thinking on the part of the Iraqi 
people that they were going to be better off, at least I think 
the majority, because we were there.
    Now we want a government that we've helped set up through a 
process, a democratic process, to accomplish that goal as well, 
and I hope we get there. I hope we get there, but I just wonder 
at some point when the President is going to say, as the 
chairman of this committee has said, ``Well, there have been 
mistakes, and I'm responsible for those mistakes. There are 
other opinions that I should have listened to, and there have 
been consequences for the errors,'' rather than that whole 
pattern over and over again of never taking responsibility and 
telling us they're in the last throes. We're at a turning 
point. We've got to stay the course. Things are going to get 
better. We're going to redo the Middle East.
    As the Secretary of State said during this Lebanon war, 
we're going through the growing pains of a new Middle East. 
Right now that new Middle East does not look very encouraging 
to me, and I don't think it would look very encouraging to the 
people in Iraq or their neighbors or the international 
community.
    You said we need the role of the international community to 
be more involved, but didn't we take the position that we 
didn't care what the international community had to say, that 
we were going to go into this war alone? Didn't we also take 
the position after the first military victory that we wouldn't 
even let some of those other countries bid for contracts in 
Iraq because they weren't with us in the beginning? Do you 
think that those actions on our part might lead to some of the 
other countries we want now to be involved to feel that we 
stepped in it, and it's our responsibility, and they can sit on 
the sidelines? Is that a problem still.
    Ambassador Satterfield. Congressman, our focus, and indeed, 
I think, collectively all of our focus, is on how to deal with 
the situation today and move forward to a success, because the 
stakes of success or failure are so significant for us, for 
others.
    Among the steps needed is to reach out, something we have 
been very much engaged in, to a broad community of 
international and regional support for Iraq.
    Mr. Waxman. Well, I agree we have to do what we can do, and 
we have to reach out as best we can, but I think we've made it 
a lot more difficult for that to happen successfully based on 
our previous actions. Very sincere people running this country 
were very arrogant. They told these countries we didn't need 
them. We told the world we could accomplish this easily; we are 
the power, and we're going to throw our weight around. And I 
think that we have caused many, many more difficulties for 
ourselves than otherwise would have been the case. You agree 
with that, don't you?
    Ambassador Satterfield. Congressman, we have acknowledged 
that the situation is extremely troubled in Iraq and that 
everything possible needs to be done to address it from the 
standpoint of our own strategies and policies. What the 
international and the regional communities do and, above all, 
what the Iraqi Government must do and how we urge them to take 
those steps, that's the course, that's the strategy we're 
embarked in.
    Mr. Waxman. And when did you say we measure whether the set 
strategy has failed or succeeded, and is there a timeframe in 
which we can make that judgment?
    Ambassador Satterfield. Congressman, one of the aspects of 
the way we have tried to execute our assessments, our strategy 
and policy over the course of the past year in Baghdad and here 
in Washington is to constantly assess and to know what the 
benchmarks are for that assessment of whether or not what we 
are doing is working, and, if it isn't, to know that and to 
make changes.
    Now, whether we're looking at the security area, the 
standup of Iraqi forces, the effectiveness of Iraqi forces, the 
government's provisions of essential services, capacity-
building on the civilian side, or the issue of rule of law and 
corruption, we know what the goals are. We and the Iraqis talk 
together about where the hollowness, the weaknesses are, and we 
assess what can be done to address them.
    There are some pieces we can't fill, the Iraqis must; some 
pieces we and they cannot address. The international community 
and the region have to come to help. But we assess every day 
what we are doing, whether it's succeeding or not, and we do 
not stay on the same rigid line. We reassess, reevaluate 
constantly, and we hold ourselves up against very real 
benchmarks of whether what we are doing is working or not, 
Baghdad security or civilian issues.
    Mr. Waxman. Not just staying the course, we may even change 
the course as we reevaluate matters.
    Ambassador Satterfield. We assess what is necessary to 
achieve success in Iraq.
    Mr. Waxman. Thank you.
    Mr. Shays. I thank the gentleman very much, and, Mr. Dent, 
you have the floor.
    Mr. Dent. Thank you, Mr. Chairman.
    About 13 months ago at this time I was in Iraq. I visited 
Kirkuk. I was down in the southern areas near Basra and also in 
Baghdad within the Green Zone, and at that time the Iraqis were 
dealing with the constitutional issues and specifically the 
allocation of resources, which is a continuing problem there. 
And I think just last week one of the Deputy Prime Ministers of 
Iraq declared that issue had been resolved, but really gave no 
details, the issue of distribution or allocation of those 
resources or oil.
    My specific question to you, Ambassador--Mr. Ambassador, is 
has that issue of the oil revenue allocation been resolved as 
indicated by the Deputy Prime Minister--I believe his last name 
is Sulih--and if it has been resolved, what are the provisions 
of that settlement.
    Ambassador Satterfield. Mr. Congressman, there is no 
resolution to the issue of a national oil and hydrocarbons law. 
The essence of such a law, which is an urgent priority for 
Iraq, will be a distribution both in terms of commercial 
rights, revenues between the center and provincial and regional 
authorities. That is something very much under discussion at a 
local as well as a national level, but it is not resolved.
    Mr. Dent. They have not determined where those decisions 
will be made, either at the central level or at the provisional 
level then?
    Ambassador Satterfield. The law itself will set out what 
the relationship is for development exploitation as well as for 
profits and control between local and national authorities, and 
that remains very much under debate.
    Mr. Dent. OK. On the issue of de-Baathification, Ambassador 
Bremer has been very candid that he believed we made a mistake 
in allowing Shia politicians to administer much of the de-
Baathification process. I think it was the Ambassador's intent 
to affect about only 1 percent, the top 1 percent, of the 
Baathist Party members.
    I guess the question I have for you is, since this is such 
a key issue to the Sunni Arabs in Iraq, do you believe that 
Prime Minister Maliki and the Shia political parties and the 
parliamentary bloc agree, and what action is Prime Minister 
Maliki's government taking to reform this whole de-
Baathification process, and can we get the Sunni buy-in.
    Ambassador Satterfield. Mr. Congressman, the manner in 
which de-Baathification has been applied has indeed been 
extremely troublesome and divisive for Iraq; it has not been a 
unifying process, and it has not contributed to reconciliation.
    In June, when Prime Minister Maliki made his speech to the 
Council of Representatives on the reconciliation issue, he 
specifically raised reform of de-Baathification as one of the 
issues that had to be addressed. This is an issue under the 
control of the Council of Representatives, but it is important 
for the government and for Iraq's political leadership both to 
have a view and to advance that view in a manner that supports 
national reconciliation. There cannot be a new national 
compact, a reconciliation deal for Iraq, without addressing the 
issue of how de-Baathification is to proceed.
    Our hope would be that issue moves forward on the basis of 
punishment for individual criminal action and not some blanket 
or class proscription or prohibition as has been applied in the 
past, or, worse, the use of de-Baathification as a political or 
sectarian weapon.
    Mr. Dent. On the issue of Kirkuk, I visited Kirkuk last 
year. I visited the big power-generating facility. I've 
forgotten the name of the town now, but I visited that 
facility, and I was struck by the ethnic diversity of Kirkuk--
the Turkmen, the Sunni Arab, Shiite Arab, and the Kurds--and 
there was a very heavy Kurdish population at one time there 
until Saddam Hussein, I guess, Arabized Kirkuk.
    What is the position, in your view, of the Sunni, Shia and 
Kurds respectively on the status of the city of Kirkuk, and 
what is the prospect that this issue can be resolved.
    Ambassador Satterfield. Mr. Congressman, the Constitution, 
as was the case with the preceding transitional administration 
law for Iraq, calls for an addressal of the issue of Kirkuk in 
its future in a manner that reflects the will of its people. 
The Constitution specifically requires a process to be entered 
into which could include, but does not specifically have to 
include, a referendum.
    This is an issue that will need to be addressed, but it 
needs to be addressed, if I could say, in the context of 
national reconciliation. It needs to be addressed in the 
context of a resolution on how oil revenues, oil expectation, 
oil investment will be managed. It's not something that can be 
seen in isolation. It is part of the national compact, part of 
the package deal that needs to set forth a basis for Iraqis, 
all Iraqis, including in Kirkuk, to live together.
    Mr. Dent. And on the issue of Kurdish autonomy, generally, 
I believe--I guess the President of the Kurdistan Regional 
Government barred the Iraqi flag from flying over government 
buildings and in the Kurdish regional area. What is the 
significance of the Prime Minister's recent actions barring 
that Iraqi flag flying and his talk of independence? What is 
your sense of what this means?
    Ambassador Satterfield. Congressman, the Iraqi Constitution 
recognizes the Kurdish Regional Government's area of 
responsibility as a Federal region of Iraq, but I would 
underscore ``region of Iraq.'' We were quite concerned at the 
decision you referred to regarding flying of the Iraqi national 
flag. We addressed those concerns urgently and directly with 
very senior Kurdish officials. It did not contribute to the 
process of national reconciliation.
    Mr. Dent. Has there been any response from the Turkish 
Government with respect to that action by the Kurds?
    Ambassador Satterfield. By the Turkish Government, sir?
    Mr. Dent. Yeah.
    Ambassador Satterfield. The Turkish Government and we, the 
Turkish Government and Kurdish officials, the Turkish 
Government and officials of the central government in Baghdad, 
are in continuing contact on a great many issues, but on this 
specific issue there was no significant public reaction.
    Mr. Dent. In the event that Iraq were ever to deteriorate 
into a full-blown civil war--I don't believe we're there 
today--but if that were the case, what do you believe the 
Turkish Government would do to protect its interests?
    Ambassador Satterfield. Mr. Congressman, I don't want to 
comment on hypotheticals because we do not concede that Iraq is 
destined for a full-blown civil war.
    Mr. Dent. I'm not saying that either, but there is a lot of 
concern that, should that occur, the Turkish Government might 
take actions.
    Ambassador Satterfield. I would refer you to officials of 
the Turkish Government for an assessment of their possible 
steps.
    Mr. Dent. And finally the issue of an--there has been a lot 
of talk, of course, about an autonomous region in the south, a 
Shia autonomous region. What are the prospects, in your view--
just get right back to this issue of civil war, but what do you 
think are the prospects for a civil war if a Shia autonomous 
region is established in the south of Iraq as some experts have 
predicted?
    Ambassador Satterfield. The Constitution provides for a law 
to be passed on how regions may be formed from provinces, and 
then, of course, a provision for how provinces could request 
such a step to be taken. There is considerable debate, Mr. 
Congressman, not just between Shia and the other communities of 
Iraq, but within the Shia community, over what should be the 
shape of governance in southern Iraq. There is no one position 
on this issue. There is no agreement even within the Shia 
community on this question, and our position would be any 
addressal of an issue as fundamental to the nature of 
governance and life in Iraq as setting up new Federal regions 
should be done in a manner which is transparent, which reflects 
clearly the will not only of those individuals in that region, 
but also contributes to the cause of a unified, national, 
peaceful Iraq, and that is not intrinsically destabilizing.
    Mr. Dent. Did I understand that the position of our 
Government of the United States is that the issue of a Shia 
autonomous region should be left to the Iraqis? Is that our 
government's position?
    Ambassador Satterfield. Well, sir, it is an Iraqi decision, 
and it is provided for in the Constitution. There must be 
legislation passed to set up the specific procedures for 
establishing these regions beyond the Kurdish region. That 
debate is ongoing, but we believe the debate should be 
conducted, and the results of that debate should certainly 
contribute to national unity, not division.
    Mr. Dent. Mr. Chairman, I'd like to yield the balance of my 
time back to you.
    Mr. Shays. Thank you very much.
    Ambassador, what is the significance of the statement by 
the Iraqi Speaker of the Council of Representatives that 
reconciliation must be achieved in 3 to 4 months or Iraq will 
go under?
    Ambassador Satterfield. Speaker al Mashhadani was 
reflecting in that comment the need for urgent action on 
national reconciliation, on a national compact on a basis for 
Iraqis to live together, and the elements of that deal, of that 
compact, are all of the things we've touched on today, 
economic, a national oil or hydrocarbons law, a relationship 
between the center and provinces or the center and potential 
Federal regions, good governance, and the ability to extend 
essential services in a sustained manner and a rule of law. All 
of those have to be part of that deal, and the clock, as I said 
in my remarks, is ticking and in an unforgiving fashion. There 
does need to be urgent progress on these issues.
    Mr. Shays. OK. One of the things that I will be asking you 
with the next round of questions is I'm going to want you to 
rank--maybe some of your staff can write this down so you can 
then rank it--the issue of amnesty, rollback of de-
Baathification, federalism, sharing the oil wealth, and 
standing down the militias. I want you to rank them in the ones 
that are going to be the most difficult to the most--to the 
easiest. That's amnesty, rollback of de-Baathification, 
federalism, sharing the oil wealth, and standing down the 
militia.
    We have a huge opportunity in our next panel to have a 
representative from the Sunni community, the Shia community and 
the Kurdish community make a case for their country in how they 
can work together and where the problems are, and we're eager, 
though, to have your view about that.
    At this time, the Chair would recognize Mr. Van Hollen. 
Thank you, sir.
    Mr. Van Hollen. Thank you, Mr. Chairman. Thank both of you 
gentlemen for being here.
    Ambassador Satterfield, thank you for your testimony, and 
thank you for your service as well. As a Foreign Service brat, 
I really do appreciate all your--all you've done for our 
country and what you've done in the Middle East in your 
service.
    Mr. Shays. Note for the record he called himself that, not 
anyone else.
    Mr. Van Hollen. That's right. And before I turn to sort of 
looking at the future, I do think it's important, though, for 
the American people listening to us as we discuss what's at 
stake in Iraq and, as you've described, the potential of al 
Qaeda and Iraq taking--using Iraq as a base for the export of 
religious extremism, that I think you would agree that those 
consequences that you've talked to emanating from Iraq if we 
don't succeed did not exist coming out of Iraq before we 
invaded Iraq. I hope you would agree with that assessment. Iraq 
before we invaded was not a base of operations for al Qaeda, 
and there was not a danger of the export of extremist al Qaeda 
etiology and terrorism emanating from Iraq in that form before 
the invasion of Iraq.
    Ambassador Satterfield. Congressman, I will take that 
question for a considered response.
    Mr. Van Hollen. I appreciate that. If there's any way you 
can get back to that--and I understand the difficulty of the 
question, but I think it's important as we debate this because 
we're in the political season now. The President's given a 
series of speeches essentially saying, if you're not with him 
on his particular ``stay the course'' proposals on Iraq, he 
sort of questioned those who have questioned him, and I do 
think it's important that, regardless of what people think of 
the consequences that might happen if we don't succeed by 
whatever definition in Iraq, that those consequences are a 
result of us having invaded Iraq. And I don't need for you to 
respond any further to that.
    On the question of national reconciliation, clearly that's 
the key to this, and as you pointed out, many of those key 
decisions are in the hands of the Iraqis, right? You would 
agree?
    Ambassador Satterfield. Certainly, sir.
    Mr. Van Hollen. OK.
    Ambassador Satterfield. All of those key decisions are in 
the hands----
    Mr. Van Hollen. So I think it's also important for the 
American people to understand that in this exchange that we're 
having that when we talk about whether or not we succeed in 
Iraq, we very much mean that we're depending on the Iraqi 
people to make the right decisions in order for success to be 
defined as we would like it to; isn't that right?
    Ambassador Satterfield. Congressman, I could not state more 
clearly that the use of ``we'' is we, the United States and 
Coalition; we, the Iraqi Government and people; and we, the 
international community.
    Mr. Van Hollen. Right, but as--I think your point was well 
taken that many of their critical decisions that are going to 
be made are decisions made by Iraqis with respect to how they 
see the future of Iraq; isn't that right?
    Ambassador Satterfield. That's correct, sir.
    Mr. Van Hollen. OK. Now, on this question of national 
reconciliation, I think the real issue here is within the 
Government of Iraq, who has made up their mind that the future 
of Iraq is a unified Iraq, or whether there are parties that 
are currently part of the government that have made up their 
mind that they see their future differently, more of an 
autonomous region either totally separated or with a very weak 
central government.
    And in that regard, let me just ask you, we had the 
testimony yesterday of Colonel Alan King, someone who had been 
on the ground in Iraq. He wrote a book, and just with respect 
to the services, to the Ministry of Interior, he pointed out 
Iraq has formed an internal security--and I'm quoting from his 
testimony yesterday--formed its internal security along 
sectarian lines with the Shia-dominated Ministry of Interior 
and the existence of the militias imposing strict 
fundamentalist policies, including death squads, operating what 
is sequaciously being attributed to the Government's inaction 
or complacency. He went on to say, ``The SCIRI's Badr Corps 
domination of the security forces has positioned a nonstate 
actor in a state-sponsored position to pursue its objectives 
independent of the government's objectives.''
    Are you persuaded as we're here today that the Minister of 
Interior has made a decision to purge itself of those 
connections to the Badr Corps?
    Ambassador Satterfield. Prime Minister Maliki and his 
Minister of Interior, indeed the government as a whole, has 
made a pledge both recognizing the problems in the Ministry of 
Interior that preceded this government and the problems ongoing 
in the Ministry of Interior and its forces to reform both 
structures and leadership.
    Mr. Van Hollen. And are you convinced--as you pointed out 
in your earlier testimony, we have rhetoric, and we have 
action. Have you seen the actions taken to meet the rhetoric 
that you just mentioned?
    Ambassador Satterfield. Sir, we have seen some actions 
taken already in terms of actions against senior officials of 
the Ministry of Interior. We have seen some actions initiated 
in terms of reform of the security services under control of 
the Ministry of Interior, but much more needs to be done.
    Mr. Van Hollen. Let me get back to this question about 
the--Barzani's decision to fly the Kurdish flag, and I 
understand that the United States made known that they didn't 
think that was helpful, but I think the real question is the 
sentiment underlying that decision that he made because, as you 
said, this is a question for the people in Iraq, whether 
they're Kurd or Shia or Sunni or whatever background they may 
be. And as we know, at the time of the January elections, there 
was a sort of straw poll taken in the Kurdish area. It wasn't a 
legally binding thing, but it did go to the question of whether 
there should be an independent Kurdistan, which has been the 
aspiration, understandably, of many of the Kurds in the region, 
and over 90 percent of the people said they would like an 
independent Kurdistan. The Peshmerga, you know, is already--
essentially, that's an independent militia in many ways, but we 
recognize that the Kurds believe that's necessary for their own 
security.
    So, given that fact, doesn't it suggest that many in Iraq 
have not made up their mind that they want to live in a united 
Iraq; that, in fact, many Iraqis--and I think this is--many 
Iraqis would prefer to see some form of whether it's real 
autonomy for each of the three regions or some form of 
partition.
    Ambassador Satterfield. I would make two general comments. 
First, the views of the majority of Iraqis as reflected in the 
view of the majority of their political representatives are 
very much in favor of an Iraq which is unitary. What 
``unitary'' means, how the relationship between the center and 
current provinces or the center and potential regions should be 
defined is very much a matter for debate, and there is the 
broadest spectrum of views which transcend Sunni, Shia, 
sectarian identification. There are many, many Shia who support 
a strong central government. There are many Shia who would like 
to see a different kind of formula followed for the south.
    The important issue here is how is the debate conducted. 
What is the outcome of the debate? Does it leave an Iraq which 
is capable of being prosperous, secure and stable, or does it 
threaten those three goals? And those are not just for us to 
postulate; although, we do and must with our colleagues in the 
Iraqi Government. It's an issue for them to debate, and the 
next weeks and months must see these issues, whether it's 
focusing on oil, the question of federalism, governance as a 
whole, and de-Baathification and the other issues the chairman 
mentioned that are part of the reconciliation, move forward. 
How does it all work together to create that stable, prosperous 
and secure Iraq.
    Mr. Van Hollen. Well, in closing, I thank you, Mr. 
Chairman, for the time. I think you're right in stating the 
challenge with respect to bringing it all together. I guess the 
question is what will the final answer be, and a lot of that 
answer will come from the Iraqi people. All we do know is that 
there does continue to be this terrible and escalating cycle of 
violence, large internal migrations of people who used to live 
side by side as Sunni and Shia having to move out of their 
neighborhoods. And the real fear is, as time goes on, that the 
situation doesn't become even worse, and, you know, it 
doesn't--looking at the situation on the ground in the last 
couple weeks doesn't give you a lot of hope, as much as I hope 
for a good result.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you, gentlemen, very, very much.
    Mr. Satterfield, just speak first to the question that I 
tried to discuss with you, and that is I've seen significant 
progress from June 2004 until January with tremendous 
expectation, and I understand that this new government took a 
while to form because the Kurdish community and the Sunni 
community exercised a veto as a minority over the choice of the 
selected Prime Minister. And so there was this debate between 
majority rule, minority rights, majority rule, minority rights, 
and minority won, and they got another Prime Minister; but the 
majority got to select that Prime Minister in the name of Mr. 
Maliki, Prime Minister Maliki, but that took 3\1/2\ months. And 
now I have seen this government operate for over 3\1/2\ months 
now, I'm hearing them say the right thing, and I'm not seeing 
them do what needs to be done.
    Would you agree that there was some significant timelines 
in 2005 and timelines met that we are not seeing right now?
    Ambassador Satterfield. Mr. Chairman, let me respond to 
your question by telling you about two different issues, one of 
which is in direct response to what you just outlined. We 
certainly did see during the course of 2005 a series of fixed 
benchmarks, which laid in front of the Iraqi people the region, 
the Coalition-specific goals, the various referenda and 
national elections that took place. Holding Iraqis to those 
deadlines, Iraqis holding themselves to those deadlines, was an 
important factor in leveraging or driving progress, and as each 
deadline, as each event was reached and successfully held, and, 
indeed, with increasing success in terms of the participation 
particularly from the Sunni community as each referendum and 
election took place, we saw a burst of confidence, of support 
for the concept of governance, sovereignty in Iraq take place. 
And you're right, that momentum faltered with the beginning of 
2006.
    Mr. Shays. I'd like to say, as someone who was there four 
times during that year, it was remarkable.
    Ambassador Satterfield. Yes.
    Mr. Shays. It was remarkable. In just 11 months, a new 
nation was created with three elections--one to create this 
transitional government. It was remarkable that they were able 
to agree on a body to write this Constitution and then invite 
Sunnis in, because they didn't have the legal representation on 
the transitional government because they didn't participate, 
and then to see that ratified and then to see this new 
government elected.
    What troubles me is that there was this huge success, but 
it was--they had timelines to basically follow, and they met 
them. What will get this new government to act given there 
aren't timelines?
    Ambassador Satterfield. Mr. Chairman, there needs to be a 
clear sense of urgency instilled in the Government of Iraq and, 
indeed, beyond the government; I would say, in the political 
leadership of Iraq, representatives in or outside of 
government, from all significant political groupings, all 
ethnic and sectarian groups in the country, that their future, 
the future of all of their peoples, the people of Iraq 
collectively, depends upon movement, movement on 
reconciliation. And I would say, sir, reconciliation includes 
all of the elements which you outlined in your remarks.
    Mr. Shays. Why don't we get to that, and if you could give 
me how you rank them. It's amnesty, rollback of de-
Baathification, federalism, sharing the oil wealth, standing 
down militia. I'm going to ask you to rank them in two ways, 
one in terms of difficulty and another in terms of the 
importance.
    What is the most important as you would--and maybe some of 
them are so equal you have to put them all in the same. But how 
would you rank them in terms of importance; amnesty, rollback, 
federalism, sharing the oil wealth, staring down the militias.
    Ambassador Satterfield. Mr. Chairman, I don't think there 
is any question that a decisive elimination of the presence of 
extragovernmental armed groups, militias, gangs operating as 
militias, whether with a sectarian or other identification, is 
the key challenge, and it is essential to moving Iraq forward 
to a better future.
    Mr. Shays. What would you put second?
    Ambassador Satterfield. When you raise the issue of 
amnesty, that is part and parcel of the question of how you 
strike a reconciliation deal out of which flows a resolution on 
militias. You can't deal with militias, a DDR process, in 
isolation from a political package deal on reconciliation in 
which de-Baathification, amnesty have to be critical elements.
    I have a young man in my office who is an Iraqi; I mean, 
he's now back at school. I asked him about, you know, some 
issues I was taking a stand on as it related to this. I asked 
him to comment about the militia. And he said, my parents never 
thought of themselves as Sunnis, they thought of themselves as 
Iraqis, but when they started to feel endangered as Sunnis, 
they then gravitated to the Sunni militia that could protect 
them. Which got me to think about the fact that, do I cut this 
Prime Minister a little slack in eliminating the militia, 
because if you eliminate the militia, is there going to be a 
void that no one then can take the place? In other words, 
through--in the process of wanting to bring peace, endanger my 
intern's parents by eliminating the Sunni militia that are 
protecting them.
    Ambassador Satterfield. Mr. Chairman, three key elements 
have to go together here, three very broad elements. Security 
has to be advanced. An element of security, a critical one 
right now, particularly in Baghdad, is extra governmental armed 
groups, militia violence. But dealing with the insurgency and 
the threat it poses, dealing with al Qaeda terror and the 
threat it poses must continue to be addressed. Security is one 
critical underpinning of the state. A reconciliation deal that 
helps drain off support for the insurgency, that helps turn 
Iraqis against terror, that's a critical element as well.
    Mr. Shays. I'm sorry to interrupt you. I have 5 minutes 
left. I'm so eager to get your expertise here. But one of the 
points that he was really making to me that got me to think of 
it in a different light is the militia have a huge negative; 
they were created, in part, to provide the protection when we 
limited all security. I mean, if we eliminated all security in 
New York State of 19 million people, all security, you would 
have banks hiring private police, you would have local streets 
hiring protective police, you have--isn't part of the militia, 
the positive part, that they are protecting communities? The 
negative is that some are being aggressive and going beyond 
that.
    Ambassador Satterfield. Well, we question exactly how much 
protection militias truly offer to their communities, as 
opposed to their role, which is essentially violent and 
criminal, in advancing very particular objectives. So we would 
challenge the entire legitimacy of the protective----
    Mr. Shays. If all militias left, I could see your point. 
The bottom line is there has to be something that takes their 
place to protect them. Which gets me back to the whole issue of 
whether we have enough security in Iraq to start with, which is 
another issue.
    Tell me, what is--it seems to me the sharing of oil has to 
be the easiest. I had Bunker Hunt come to my office, stretch 
out a map, and basically tell me that he thinks Iraq has almost 
as much oil as Saudi Arabia, and that it is everywhere, not 
just in pockets; it's in pockets now, but he says when full 
research is done, you will find it everywhere throughout Iraq.
    What is--is the oil, sharing of the oil revenue the most 
difficult? Because it seems to me to be one that should be able 
to bring people together.
    Ambassador Satterfield. We don't think it is the most 
difficult issue to be addressed, we certainly don't. We think 
an equitable, rational basis for sharing exploitation as well 
as revenues can be devised. Our guidelines here would be a 
process of dealing with revenues and exploitation that 
contributes to national unity, that contributes to the 
stability of Iraq, and which is not intrinsically divisive.
    Mr. Shays. Some of--and this is not everyone--but some who 
are most opposed to the war in Iraq spoke out very strongly 
when Iraqis started to talk about amnesty and they started to 
talk about forgiving acts. And then there was this point that 
anyone who killed Americans should not be forgiven. And I'd 
love to know the administration's opinion on this, because I'll 
tell you mine. My view is you need amnesty, you need--unless 
there were those who did heinous crimes of cutting off heads 
and so on. But it seems to me that you will not get amnesty--
you will not have peace unless you have amnesty. And amnesty 
will require forgiveness, and forgiveness will mean that you 
have to forgive not only deaths of Iraqis, but of Americans. 
And it seems to me that's the one way you save future American 
lives is if you have amnesty.
    Is amnesty, one, important? And, second, are you prepared 
to address it as it relates to Americans?
    Ambassador Satterfield. Amnesty is critical, Mr. Chairman. 
It is an essential element in any reconciliation deal. And 
without a comprehensive amnesty, that reconciliation deal 
cannot be struck. Now, our point has been made quite clearly to 
the Iraqi leadership and its political elites that we cannot 
accept any amnesty which differentiates between the legitimacy 
of killing Iraqis and the so-called legitimacy of killing 
Americans or Coalition members. But an amnesty deal will need 
to be there if this country is to move forward as part of--not 
stand alone--as part of a broader reconciliation package.
    Mr. Shays. OK. In the minute we have thus left, would you 
just tell me what gets the Iraqi politicians--and I have 
tremendous respect for them, but I don't respect what I've seen 
happen in this last year--what gets them to move more quickly 
before, frankly, the United States pulls the rug out from under 
them? And I say that, not that the President will, but you 
could have a new Congress who may.
    Ambassador Satterfield. Mr. Chairman, I'll comment on the 
first part of what must be done to move the Iraqis forward. It 
is, I believe, the clearest possible message that, without 
movement, without concrete progress and urgent progress in the 
weeks and few months ahead on all of these issues--
reconciliation, economic questions, good governance, security, 
end to sectarian violence, the beginnings of a demobilization 
process for militias--that success for them as they would 
define it cannot be achieved, much less success as we define 
it.
    Urgent progress has to be made. And that message is one 
which we are passing and will continue to pass at the highest 
levels. We do have an interest in this succeeding.
    Mr. Shays. Thank you very much.
    Mr. Lynch, you have the floor.
    Mr. Lynch. Thank you, Chairman. And, again, I want to thank 
you and the ranking member, Mr. Kucinich, for holding this 
hearing.
    Mr. Ambassador, I want to start my questioning off with a 
quote which comes from H.L. Mencken, and he says that--let's 
see if I can get it here--for every problem--for every 
complicated problem there is a solution that is simple, neat, 
and almost always wrong. And I just want to start out by saying 
that given the complex nature of the problems that we have in 
Iraq and the changing nature of our challenges there, that 
staying the course may be clear and simple, but it is most 
definitely wrong.
    And I've had an opportunity on five occasions to travel to 
Iraq and spend time there. I was there back in the beginning 
when General Gardner was actually serving in a role as 
Ambassador. I met also with Ambassador Bremer, and most 
recently Ambassador Khalizad, both in Iraq and in Afghanistan.
    One of the things that I want to ask you about is, sitting 
here in Congress, the initial mission for our operation in 
Iraq, Operation Iraqi Freedom, was to remove Saddam Hussein and 
basically to give the Iraqis a chance--give the Iraqis a chance 
at having a stable democratic state. And when I went there on 
my earliest trips, that was definitely the mission. We were 
fighting Ba'athist loyalists and Fedajin, and we moved on to 
some of the milestones that have been cited here about the 
elections, and had the pleasure of meeting with President Jalal 
Talabani. There have been milestones there in terms of us 
creating the possibility, the chance, if you will, for Iraqis 
to have a stable democracy there.
    But now the mission--indeed, the title and subject of this 
hearing is what do we need to reconcile the differences between 
the Shia and the Sunni? Now, I'm no historian, but I believe 
that schism between the Sunni and the Shia goes back to the 
year 632 A.D., the death of Mohammed, and the split over his 
successor. That has been a constant battle between Shia and 
Sunni for 1,400 years. And now we're trying to figure out a way 
to reconcile the differences between Shia and Sunni in Iraq?
    I have to say that if that was the vote, if that was the 
vote that the chairman talked about, if the question on the war 
was are we going to commit our troops for the purpose of 
reconciling the differences between the Shia and the Sunni in 
Iraq, no votes--no votes--I don't think there is a single 
Member in this body that would have committed our troops for 
that purpose----
    Mr. Shays. Would the gentleman yield?
    Mr. Lynch. Sir, I've sat here on this quietly for several 
hours----
    Mr. Shays. I'm just asking, as chairman, if you will yield. 
I am not going to take away from your time.
    Mr. Lynch. OK, great.
    Mr. Shays. I just have tremendous respect for the 
gentleman. I'm only saying that I really hope you're able to 
stay for the second panel when we have Sunnis, Shias and Kurds 
here.
    Mr. Lynch. Yes, absolutely, Mr. Chairman. I'm sorry.
    Mr. Shays. And I give the gentleman an extra minute, 
please.
    Mr. Lynch. I thought you would give me a quick clock, 
that's all.
    Mr. Shays. No, absolutely not.
    Mr. Lynch. And I appreciate Mr. Talabani's son is here. And 
I'm a big fan of his dad--wherever he is. I had a chance to 
meet with him on the first session of the Iraqi Parliament in 
the Convention Center when the air conditioning went out and it 
was 125 degrees. So I remember that day well.
    But the mission has shifted here. And I think it requires 
us, as responsible leaders of this Nation and trying to be 
loyal to our sons and daughters in uniform and the resources of 
this country, being preserving of those resources and being 
mindful of the developments in the Middle East, it is just 
stunning in my mind that we have not taken a good hard look at 
what's going on there and adjusted our policy to the reality of 
Iraq today.
    I want to say that in my visits to Iraq, one of the things 
that I've noticed over and over--and it was understandable at 
first, but even in my most recent visits back in April--and I 
talked about this in my opening statement--was the inability or 
the unwillingness or the resistance of some in terms of 
transferring the basic government operations over to the Iraqi 
Government, the Iraqi Government being elected back in 
December, and the idea that, at least among the people who went 
out and voted in those elections, that their own government was 
going to take over responsibility for their country, and that 
has not happened. And I hear complaints not only from, you 
know, average Iraqis when we go into Iraq, but also from the 
Iraqi leaders and the Iraqi Parliament that they don't have 
enough responsibility and power in their own country, and that 
when people need the services, basic services of government, 
they still after 3 years have to go the U.S. forces and the 
U.S. Marines, the engineering divisions of our Army, in order 
to get basic services provided.
    And I just want to ask you, do you believe or do you not 
believe that in order to create the stable preconditions for 
U.S. withdrawal, that basic government operations substantially 
have to be shifted over to the Iraqi Government?
    Ambassador Satterfield. Congressman, we certainly agree 
that Iraqis must take the lead both on security and on 
governance.
    Mr. Lynch. My question is this: When I travel to Iraq, it's 
a very choppy assessment. As a Member of Congress and someone 
who is charged with the responsibility of oversight--and I'm 
sure the chairman will agree, he's been there 14 times, I've 
been there 5--but it is very difficult to make a clear 
assessment on where we are in terms of making that transition 
over to the Iraqis sector by sector, oil, energy, roads and 
bridges, security, obviously.
    But I have, you know--I came back and I tried to think 
about what is the most responsible way of getting our troops 
home, given the reality of the situation in Iraq. And as I said 
before, stay the course is a simple answer, but it's wrong. And 
also I think announcing a date and evacuating is also a very 
simple answer but may have tremendously disastrous consequences 
for our troops in the theater and for the country, as a 
responsible power.
    But I do believe that we need to make that happen, and I 
don't see anyone whose sole responsibility is to make that 
transition happen. I see it's everybody's job but it's nobody's 
job. And it's very difficult to track that transition, to 
monitor it, to encourage it, facilitate it.
    And so what I've done is adopted--drafted a bill, with the 
help of others, that would establish a national commission to 
make sure that transition goes forward, and to track it, to 
facilitate it, and to make sure the Iraqis are in a position to 
assume responsibility for their own government and let our 
people get the heck out of there. We have tens of thousands of 
our troops whose duties there on a daily basis are to provide 
the basic services of civilian government. And the Iraqis at 
this point need to pick up that responsibility, and I just 
don't think they're being pushed hard enough to do that. It's 
understandable under the circumstances that they're reluctant, 
but we have to make them do it nonetheless. As long as we're 
paying for it and as long as we're doing it, they're going to 
let us; that's human nature.
    And I just don't see any agency within Iraq that's pushing 
hard on that issue and making that happen. You may have 
different observations, and I'm happy to hear them.
    Ambassador Satterfield. Congressman, with all respect, I do 
disagree with the thrust of your remarks. There are two 
individuals--one in uniform, one not--in Iraq who very much 
have as their central responsibility ensuring that this 
transition occurs: General George Casey and Ambassador Khalizad 
and the mission working under them. There is a very, very 
focused, structured effort with goals, with benchmarks, with 
monitoring mechanisms in place to determine what is needed from 
day to day, from week to week, to see whether success is being 
achieved on issues of capacity, on issues of security 
transition. We'd be happy to provide a briefing on this 
process.
    This is the focus of our lives as an administration, as a 
mission, every day, and it does have a leadership.
    Mr. Lynch. OK. Ambassador, with all due respect to you, 
look, I think General Casey is a fine man, and he has seen way 
too much of me, I think; every time I go to Iraq I have at 
least a couple of hours to spend with him. And I do think that 
he regards that as a central responsibility. However, I also 
know from the situation on the ground that responsibility is 
secondary to the military responsibility. He has to address the 
insurgency and the military confrontation that's going on 
there, and that should be, and is, his first and by far most 
dominant concern. And every time that the transition to Iraqi 
control gets pushed back because of his military mission, I 
just feel that it's languishing. It is not anybody's first job. 
It's not General Casey's first job, it's not Ambassador 
Khalizad's first job.
    And what I'm trying to do is to make sure this happens, 
because as long as this doesn't happen--it's not going to 
happen unless it's somebody's responsibility, if somebody is 
held accountable to making sure the Iraqis are transitioned 
into a governing role--it's just not happening. And it's 
extremely frustrating to watch that process continue. And I 
just think we need some transparency there.
    My bill draws from an example during the Second World War, 
quite frankly, when we found ourselves inadvertently in control 
of the Philippines militarily. We had driven the Japanese out 
and we controlled the Philippine islands. And the U.S. 
Government was fully supportive of their independence. And we 
set up a national commission, FDI did, and Truman after him, to 
create a national commission basically to transition the 
control of the Philippines from the military to the newly 
forming Philippine Government, and we did it very effectively.
    And I think a similar panel needs to be established here to 
make sure that happens. The President--the White House had a 
role in it, the Senate and the House of Representatives each 
had roles in it, the State Department had a role in it, Defense 
Department. But it was a unified effort; it had transparancy, 
it had accountability, it had benchmarks, and it got done 
because it was somebody's job and because there would have been 
hell to pay if nobody did it.
    And I just think this bill offers the same framework. It's 
proven to be successful on at least that one occasion. And 
that's my assessment of it. I'm no expert. I just spend a lot 
of time on this, as you do, and we've just got to see some 
movement here, and I don't believe that maintaining our current 
course of action is an answer in any respect.
    Mr. Shays. I would just thank the gentleman and say that 
maybe after the election, depending on who's back, we can 
practice what we're preaching with our esteemed colleagues in 
Iraq. When we ask Sunnis, Shias, and Kurds to work together, 
maybe there will be a way where we can find Republicans and 
Democrats can work together on this very important issue and 
find some common ground. And I appreciate your efforts to find 
an initiative and to move this forward, and I thank you for 
that.
    Mr. Lynch. Thank you, Mr. Chairman.
    Mr. Shays. Mr. Van Hollen, you had one little point.
    Mr. Van Hollen. I had one question. Mr. Ambassador, I don't 
want to get into a long dialog on Iran. I happen to think Iran 
has been strengthened and emboldened because of the chaos in 
Iraq, but Ambassador Khalizad some time ago proposed that we 
engage in direct discussions with the Iranians with respect to 
the situation in Iraq. And my question is, what has come of 
that proposal and have there been discussions?
    Ambassador Satterfield. There have been no such discussions 
conducted. We are interested in addressing issues of Iranian 
behavior in Iraq in an appropriate forum, at an appropriate 
time.
    Mr. Van Hollen. If I could just followup, Mr. Chairman. 
Have we had no discussions with the Iranians on the Iraq 
question because of their lack of interest or of our failure to 
follow through with the proposal of Ambassador Khalizad?
    Ambassador Satterfield. No discussions have been held.
    Mr. Van Hollen. If you're saying you don't want to answer--
--
    Ambassador Satterfield. In this forum.
    Mr. Van Hollen. All right. I would like to followup on that 
in the appropriate forum.
    Mr. Shays. Thank you. Let me just ask, Ambassador, if there 
are any points you want to put on the record before we go to 
our next panel. Is there anything that we should have asked you 
that we didn't, that you were prepared to answer, that you 
think we need to put on the record?
    Ambassador Satterfield. Mr. Chairman, I would just like to 
draw together comments made, I think, by every member here, and 
by you, Mr. Chairman.
    One cannot deal, as you look at success in Iraq, in taking 
individual issues--amnesty, an oil deal, a demobilization/
reintegration process--in isolation, or federalism. They're 
also interlaced, they're all interlinked. Success in Iraq, 
success for the Iraqis will depend upon an approach that brings 
these critical issues together, allows a deal to be struck that 
has elements taken and given on all of these points, and that 
moves the country forward and moves it forward in an urgent 
manner. The challenge is to find a way to do that and to do it 
quickly. All are important. If any one is taken away, you'll 
get failure, or less than success on the others. It is putting 
together those elements of a national compact that has to be 
advanced at this point.
    And the only other comment I would make is to note we have 
made progress. Our soldiers, our civilians in Iraq, have 
achieved significant progress. Iraqis must do their part to 
continue that progress. So does the international community and 
the region. But on security transition, on capacity, on basic 
services, the situation is not what it was a year ago, and in 
turn, not what it was 3 years ago.
    Mr. Shays. Not to leave a false impression, because this 
panel will be followed by a panel of Iraqi representatives of 
this government, I think you would agree there are a number of 
things we did that made their job more difficult; is that not 
true?
    Ambassador Satterfield. Mr. Chairman, the job for the Iraqi 
government is a very challenging one. We try constantly to do 
what we can to contribute to their success--because in the end 
that is our success--and not to thwart it.
    Mr. Shays. OK. Well, then, I'm going to say it for the 
record, if you won't. We attacked them, we disbanded their 
army, their police, and their border patrol and left them with 
no security. We allowed huge amounts of looting to go on. And 
then we basically said, you know, let's move forward.
    I realize they made decisions that were a mistake, but we 
made a number of them as well. And maybe it's more appropriate 
that I say it than you. But I realize that we've asked them to 
do some very difficult things, made more difficult by some of 
the decisions we made early on. So I will say that.
    And I will conclude by saying to you, Ambassador, you are 
an American hero. You have served your country tremendously, in 
some of the most difficult places, and you have done it with a 
tremendous amount of class and honesty. You have received high 
marks from Republicans and Democrats alike, and we are very, 
very grateful for your service.
    And, Mr. Bever, I want you to know that you have done your 
job perfectly, because no one wanted to ask you any questions, 
and the Ambassador was able to do what he needed to do. And 
given that you're fairly new on this job, you must have someone 
up there who loves you, who was looking out for you. And so I 
thank you for your presence as a back-up if it was needed.
    We're going to just take a 2-minute break, and then I am 
very eager to welcome our next witnesses. Thank you very much.
    [Recess.]
    Mr. Shays. I'd like to recognize our second panel. It's a 
distinguished panel and we are so grateful that they are 
participating in this hearing. We have Dr. Hajim Al-Hasani, a 
member of Parliament, a former Speaker of the Iraqi Parliament 
of 2005; and, something that gives him tremendous credibility 
with me, I think he earned his doctorate, but I know he 
attended school at UCON, University of Connecticut.
    And we have Mr. AlMusawi, the Washington Representative of 
the Supreme Council for the Islamic Revolution in Iraq, SCIRI. 
And we welcome him.
    And we have Mr. Qubad Talibany, the Representative of 
Kurdistan Regional Government of Iraq to the United States. And 
his father is the President of Iraq and a wonderful man, who I 
have had many occasion to visit with.
    Gentlemen, as you know, we swear in our witnesses, and we 
would like to do that with you as well. We ask you either to 
swear or affirm, whatever is appropriate, but if you would 
stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Shays. I just note for the record we are an 
investigative committee and all our witnesses are sworn in, 
every one of them, so that's why we do it.
    Doctor, we're going to start with you, and we'll just go 
right down the list. You are a member of the Parliament, and 
it's wonderful to have you here. The mic, you might just tap 
this to see if it's on. OK, thank you, welcome.

 STATEMENTS OF HAJIM AL-HASANI, MEMBER OF PARLIAMENT (SUNNI), 
    FORMER SPEAKER, IRAQI PARLIAMENT 2005; KARIM ALMUSAWI, 
  WASHINGTON REPRESENTATIVE, SUPREME COUNCIL FOR THE ISLAMIC 
    REVOLUTION IN IRAQ (SCIRI) (SHIA); AND QUBAD TALABANY, 
REPRESENTATIVE OF THE KURDISTAN REGIONAL GOVERNMENT OF IRAQ TO 
                       THE UNITED STATES

                  STATEMENT OF HAJIM AL-HASANI

    Dr. Al-Hasani. Thank you.
    Mr. Chairman, ladies and gentlemen, almost 3\1/2\ years ago 
the United States and its allies went to Baghdad and removed 
Saddam's regime, abolished the oil state, and started the 
process of nation building in Iraq. However, incorrect policies 
that were based on wrong information provided by major Iraqi 
politicians led us to flawed fundamentals in building the new 
state. It is worthwhile here to mention a few major ones 
without going into details.
    The biggest policy mistakes were dividing Iraqis into Shia, 
Sunni, Kurd. This is something we can't see even in this panel. 
This is something--I personally didn't accept it from the 
beginning, and I personally don't accept it now. I'm Iraqi 
first, Iraqi second, Iraqi last.
    The second mistake was the Iraqi security forces--disarming 
the Iraqi security forces, and then debaathification policy and 
open border.
    Now let's let bygones be bygones. The issue now is, how can 
we overcome those mistakes? Here I would like to make a few 
points that are vital for the success of both the Iraqis and 
the United States, and could pave the roadmap to resolve Iraq's 
major problematic issues. First, the national reconciliation 
process should be the cornerstone of present United States and 
Iraqi policy, and we should not allow partisan, sectarian, and 
regional politics to spoil it. For this to succeed we need to 
identify the parties that we need to reconcile with. Some 
insurgency groups are important ones. Find a common vision 
among Iraqis on the new Iraqi state. This is what 
reconciliation is about. This vision includes building 
professional security forces that are well balanced and loyal 
to the state and Iraqi people; building a state based on the 
rule of law; support building democratic institutions; help 
parties reach an agreement on amending the new Iraqi 
constitution that will be accepted by all major groups, Sunni, 
Shia and Kurds; strengthen the Iraqi economy by stimulating 
strategic investments; fight and prosecute corruption to the 
maximum extent; dissolve all militia forces; stop regional 
meddling in Iraq's affairs; halt the debaathification process. 
Current Ba'athists should be processed by the judicial system. 
Determine who the real enemies are, al Qaeda and loyal 
Saddamists, and fight them together; general amnesty in Iraq.
    This cannot be accomplished without strong regional and 
international pressure. The United States has a major role to 
play, especially by manipulating its political, economic and 
military leverages to compel Iraqi players to abide by any 
agreement or progress. The emphasis here is that the United 
States has the ability to create a stable, economically viable 
democratic state as long as it stays engaged.
    It must work to implement the aforementioned policies for 
us to see real progress in Iraq.
    Finally, don't think about withdrawing U.S. troops now. 
That is not and must not be an option. If it happens, it will 
lead to communal civil war that would give the terrorists a 
victory and might lead to regional war, disruption of oil 
supplies, and will end what is today a unified Iraq. That will 
put blame on the United States and will shake the United States 
standing in the region and the world, not to mention the grim 
reality that terrorists will soon be knocking on your doors 
here in the United States. The war in Iraq is not an Iraq-
specific war, it is an international war against terrorism. We 
are in this together and must fight it together.
    It took 3 years to create this mess in Iraq; it is very 
difficult to sum up, you know, the solution for it in 5 
minutes. Thank you, Mr. Chairman.
    Mr. Shays. Doctor, we will have plenty of time to have a 
dialog. There will be no limit to how you respond to questions, 
and I'll give you every opportunity because we don't want to 
bring it down to just 5 minutes. You're one of the few speakers 
that's ever come before this committee that's actually tried to 
live within the 5-minute rule, so thank you very much.
    [The prepared statement of Dr. Al-Hasani follows:]
    [GRAPHIC] [TIFF OMITTED] 38581.016
    
    [GRAPHIC] [TIFF OMITTED] 38581.017
    
    Mr. Shays. Mr. AlMusawi, thank you, sir. Sir, I'm going to 
ask you to move the mic toward you in the middle.

                  STATEMENT OF KARIM ALMUSAWI

    Mr. AlMusawi. Chairman Shays, and distinguished members of 
the subcommittee, good afternoon.
    First, allow me to express the deep appreciation and 
admiration for the American men and women, military and 
civilians, who are trying hard to make Iraq succeed in 
partnership with Iraq's elected government.
    Also, as we are remembering the fifth tragic anniversary of 
the September 11th crime, I want to express my sincere 
condolences to the American people and the families who lost 
their loved ones.
    Since the day Prime Minister Al-Maliki announced his 
courageous reconciliation plan, his goals have been clear: to 
open a dialog with theinsurgents, dismantle the militias, and 
implement certain measures to defuse the escalating sectarian 
tension and violence that has increased in the past few months, 
especially after the explosion of the Holy Shrine.
    Reconciliation is a very immediate and most vital priority, 
and it is a collective mission of all Iraqi religious, 
political, and tribal leaders. Consequently, the national unity 
and the building of Iraq are two key pillars which reinforce 
all other activities of this new government.
    Also, the cause of dividing Iraq as a part of the solution 
to get rid of the current sectarian congestion have been 
rejected. And the recent polls and surveys show that most 
Iraqis are again partitioning the country. By setting the 
priorities, the Iraqis could easily control the chaotic 
situation.
    For instance, security isn't a priority for certain 
government aides and consultants in Iraq and Iraqi Kurdistan. 
Construction and investment might be the priority there. On the 
contrary, security is a priority in Baghdad.
    The following terms need to be clarified:
    First, the transferring of debaathification from its 
political category to the judicial security priority authority 
is good progress to define debaathification.
    The formation of militia outside the framework of the Armed 
Forces is prohibited. Dismantling the militias should come 
through the legal channels in accordance with the Law 91.
    Iraq issue amnesty to all the prisoners who have not 
committed any war or terrorist crimes or crimes against 
humanity. Indeed, it has become clear, following the killing of 
Zarqawi, that the Saddamists have been responsible for fueling 
violence a lot more than terrorists.
    Accountability is necessary for rebuilding in Iraq, but it 
should be part of a system that includes all Iraqi 
institutions; otherwise, it will target one party and exclude 
others.
    Second, the real interpretation of Article 3 is that all 
oil, gas and natural resources for the current fields or the 
ones which will be discovered in the future are all owned by 
the people of Iraq and all the regions and Governorates. 
Revenues will again be distributed fairly among Iraqis.
    Third, the Powers of the Regions and the rights of forming 
federations are the main contentious issues. We have no major 
concern regarding any amendment if it would go through a legal 
process.
    Fourth, the relationship between the Coalition forces and 
the Iraqi Government represents the focal point bringing 
security to success. And in view of this, any talking about the 
withdrawal of the Coalition forces unilaterally would 
definitely lead to the failure of the Iraqi experience.
    Fifth, success will be in the benefit of all Iraqis, 
Coalition troops, the region's stability, and the international 
community. The original states should start viewing the newly 
elected Government of Iraq as a threat to the original systems. 
It is of utmost importance of the original states to secure the 
borders and to dry up the financial resources.
    Also, I would like to agree with my brother, Dr. Al-Hasani, 
about identifying us as Shia and Sunnis. I would just like to 
mention that as well. And it's very important. This is my sense 
all my life; there is no sense that I am Shia, as AlMusawi 
said, I am first Iraqi and second Iraqi and last Iraqi. Thank 
you, Mr. Chairman.
    Mr. Shays. Thank you very much.
    [The prepared statement of Mr. AlMusawi follows:]
    [GRAPHIC] [TIFF OMITTED] 38581.018
    
    [GRAPHIC] [TIFF OMITTED] 38581.019
    
    [GRAPHIC] [TIFF OMITTED] 38581.020
    
    [GRAPHIC] [TIFF OMITTED] 38581.021
    
    [GRAPHIC] [TIFF OMITTED] 38581.022
    
    [GRAPHIC] [TIFF OMITTED] 38581.023
    
    [GRAPHIC] [TIFF OMITTED] 38581.024
    
    [GRAPHIC] [TIFF OMITTED] 38581.025
    
    [GRAPHIC] [TIFF OMITTED] 38581.026
    
    Mr. Shays. Mr. Talabany.

                  STATEMENT OF QUBAD TALABANY

    Mr. Talabany. Thank you, Mr. Chairman. I'm sorry to be the 
bad egg that might break the 5-minute rule, but I will try to 
do my best to stick within the----
    Mr. Shays. You do exactly what you want to do. And I 
apologize to our first two speakers if we overemphasized the 5-
minute rule because, frankly, I consider it so important that 
you say whatever you need to say. So I'll invite you, before I 
even ask questions, if there are any other points that you want 
to say. But Mr. Talabany, you have the floor.
    Mr. Talabany. Thank you, Mr. Chairman, for the opportunity 
to testify on the critical topic of national reconciliation in 
Iraq. I'd also like to take this opportunity to thank you and 
the ranking member for your leadership on this important 
subcommittee, and the work of the entire subcommittee on the 
subject of Iraq.
    We are also grateful, Mr. Chairman, for the many visits you 
have led to Iraq, including the two individuals recently to 
Iraqi Kurdistan.
    I'd also like to take this opportunity to thank the brave 
men and women of the U.S. Armed Forces who are serving or have 
served in Iraq, as well as the diplomats and civilians who 
labor tirelessly with Iraqi officials.
    Iraq is a country traumatized by its horrific past and at 
times its faltering present. To overcome that trauma and to 
build a robust inclusive political process, Iraq requires 
national reconciliation. The Iraqi Government has put forth a 
National Reconciliation Plan that, if carried out, will help to 
begin to heal the pain of this country.
    There are many aspects of this plan. These include 
reforming the debaathification policy and amnesty program, and 
dealing with the problems caused by militias. However, before 
addressing these key issues, we must understand that national 
reconciliation means something very different to each of Iraq's 
major communities: Kurds, Shia and Sunni Arabs. Each regard the 
national reconciliation through the prism of their political 
goals because of their profound insecurities about the future.
    Iraq was built as a state in which conflict was part of its 
architecture, a country that many of its inhabitants did not 
want. Outsiders must recognize that inside Iraq there is no 
common understanding of what it means to be Iraqi. The lack of 
a core common identity has been exacerbated by evolving 
political and security situations since 2003. Iraqi 
expectations were high, and many of these expectations were not 
met. Instead, the violent and illogical opposition of a 
minority within the Sunni Arab community, coupled with a weak 
Iraqi state, has led to the further polarization of the Iraqi 
society. Insecure about the future, Iraqis have emphasized 
their ethnic and sectarian identities. In Iraq, families are 
being torn apart by the Sunni-Shia divide. Kurds have mediated 
between these two sects. Ironically, the Kurds, once Iraq's 
internally displaced, have become hosts to tens of thousands of 
Arabs who are becoming displaced by the violence.
    Ethnic and sectarian identities are inescapable and cannot 
be ignored, even though they did not fit with the vision that 
some had for the new Iraq. Instead, we must deal with what we 
have and treat the ethnic and sectarian divisions not as the 
end of Iraq, but, rather, if addressed properly, our last 
opportunity to save it. By embracing Iraqi's identities as they 
are and shaping the political order that accommodates and 
accepts them, we can achieve true national reconciliation.
    Iraqi's past and present is defined by a fundamental clash 
of two visions. One seeks a unitary state. Many, but not all, 
of those who advocate this central autocracy are a minority 
motivated by supremist ideology. The second vision, held by 
most of Iraq's two largest communities, the Shia Arabs and the 
Kurds, by and large advocate a decentralized government, a 
democratic federation. This vision was endorsed in a democratic 
referendum that ratified the constitution. Like all democratic 
constitutions, ours is not a perfect document. It is, 
nonetheless, the only democratically ratified constitution in 
the region, and, if implemented, could lay the foundations for 
a functioning democracy.
    The constitution allows for Iraqis to organize themselves 
the way they want. Kurdistan today stands as a Federal region 
with its own governance and security. And I'm proud to state 
that today the Kurdistan region stands as a success story, in 
part because of the support and the protection of the United 
States and the United Kingdom over the past 15 years. If others 
in the country want to Federalize the rest of the country, 
providing such steps are taken democratically and with the 
support of the people who live in these regions, then we must 
stand on the side of the constitution.
    The Iraqi Government's National Reconciliation Plan 
compliments the democratic federalism of the constitution by 
seeking to provide justice for the victims and the 
perpetrators. To provide justice, the plan seeks to reform the 
debaathification process in order to bring to justice those who 
committed crimes against humanity and crimes of genocide, while 
allowing those who want to participate in rebuilding this 
country and play a constructive role the opportunity. We should 
not punish everyone who joined the Ba'ath party. Nonetheless, 
national reconciliation requires that those with blood on their 
hands should never hold senior government posts or security 
posts, or be in the position to harm Iraqi citizens again. If 
we allow criminals of the former regime to hold senior posts in 
the new political order, we will be building a new country on 
rotten foundations.
    Bringing elements of the insurgency into the political 
process will also be difficult. Again, the Kurds have led the 
way in this effort.
    A major component of the National Reconciliation Plan 
involves a potential amnesty for certain elements of the 
insurgency. Amnesty should not be extended to foreign 
terrorists or home-grown extremists who are not willing to 
cease fighting. What it should do is allow the mass of the 
insurgency to know that it can lay down its arms and be part of 
the new Iraq that will not exact retribution.
    National reconciliation also means tackling the militias. 
As CENTCOM Commander General Abizaid said at an Armed Services 
Committee hearing, there are militia that are benign or that 
are working closely in conjunction with the state to provide 
some additional security, and they do not need to be disbanded 
right away.
    Our goal should be to have security forces that are 
accountable to government institutions. We must not tolerate 
the existence of death squads and those who abuse the cover of 
an official uniform to commit sectarian crimes, as Ambassador 
Satterfield correctly stated.
    Much has been said regarding the Kurdish security forces 
known as the Peshmerga. The Peshmerga are not a militia. It is 
a professional military force that possesses a transparent 
chain of command that is always accountable to a government 
elected by the people. These fighters have been called upon by 
civilian leadership to defend the security of the Kurdistan 
region. And it is in part due to their bravery and competency 
that the Kurdistan region today is Iraq's most stable and 
secure.
    Since Operation Iraqi Freedom, many thousands of Peshmergas 
have joined the Iraiqi security forces and have led the fight 
against the terrorists. What needs to complement the main 
planks of the national reconciliation is a national pact on oil 
and potential constitutional revisions. Oil is Iraq's greatest 
asset and its most abused resource. Many Iraqis, the Kurds in 
particular, feel that the oil has been a curse. It was only 
when Iraq was obliged by the Oil-for-Food Program in 1996 did 
Kurdistan benefit from the nation's oil.
    Iraq's history has engrained in us and others in the 
country immense insecurities. Given these experiences, Kurds 
have little confidence that any government in Baghdad, 
including one that has many Kurdish ministers, will safeguard 
our share of the country's wealth.
    What is needed for a sound oil policy is balance. We need 
to end the complete centralization of the country's resources, 
while recognizing that Baghdad can play a useful role in 
ensuring fairness and imposing checks and balances. Iraq's 
regions, including Kurdistan, must play a key role in the 
development of the nation's oil and gas sectors, as called for 
in the constitution.
    A preliminary agreement on oil has been reached recently, 
but more work needs to be done to overcome the insecurities, 
especially of the people that live in the non-oil-producing 
regions.
    The final element of the current Iraqi Government policy is 
to allow for constitutional revisions. There are, of course, 
those who say that there is no need to revise the constitution, 
as it reflects the will of the vast majority of Iraqis. Such a 
view has its logic, but it is the wrong approach. It is in the 
spirit of consensus and cooperation that Iraqi officials have 
agreed on a 4-month period to allow for those who were not part 
of the constitutional drafting process to recommend textual 
amendments. Discussions are ongoing on this issue, but have yet 
to yield results.
    Throughout this endeavor, we will require American support. 
The American people have, as always, been generous. The United 
States must continue to play an important role in our 
development politically, economically, and militarily. We all 
look to the day when American Armed Forces can return home with 
their heads held high, but unfortunately today is not that day. 
It is critical for U.S. forces to continue working side by side 
with Iraqi forces to fight those who want to do us both harm.
    We are not naive about the political climate in an election 
year in the United States. We understand the growing impatience 
of the American people. No war is easy to a people. And yet I 
ask you, as elected representatives of your great people, to 
urge patience.
    We are trying to lay the groundwork for a democratic 
society. We face many challenges; most we hope to win. Victory, 
however, requires that we stand together. Thank you.
    [The prepared statement of Mr. Talabany follows:]
    [GRAPHIC] [TIFF OMITTED] 38581.027
    
    [GRAPHIC] [TIFF OMITTED] 38581.028
    
    [GRAPHIC] [TIFF OMITTED] 38581.029
    
    [GRAPHIC] [TIFF OMITTED] 38581.030
    
    [GRAPHIC] [TIFF OMITTED] 38581.031
    
    [GRAPHIC] [TIFF OMITTED] 38581.032
    
    Mr. Shays. I thank all three of you for your very, very 
thoughtful comments. And I regret that, for whatever reason, 
some of my Democratic colleagues who feel we shouldn't be in 
Iraq aren't here to hear your words and to question you and to 
hear your response to their questions. But I have more than 
enough questions to ask.
    I view your participation in this congressional hearing as 
historic, and I believe that what you say will have impact well 
beyond this committee. So I thank you more than you can imagine 
for your presence.
    I'd like to start by saying to you a few things so you kind 
of know where I'm coming from and you can react to it. When I 
ask an Iraqi if they're a Shia, they say, sir, I'm a Shia, but 
I'm married to a Sunni. I'll ask a Sunni, are you a Sunni? And 
they will say I'm a Sunni, but my daughter is married to a 
Shia. And then I ask a Kurd, are you a Kurd? And they said yes, 
but sir, we're Sunnis. And you're lecturing me about what--how 
we kind of view you.
    My first visit to Iraq was in October 2003--excuse me, in 
April 2003. And I went in with a nongovernment organization 
before the fighting had stopped, and I met a man named Mohammed 
Abdul Musaad. And he told me that he got married in his fifties 
because he had been in an Iranian prison for many years and 
missed the first exchange of prisoners because Iraq didn't have 
as many Iranians as Iranians had Iraqis. And I found myself 
saying, you've had a tough life. And he looked at me in some 
amazement and said, sir, no different than any other Iraqi. And 
it was a huge kind of message to me that I can't compare my 
life with their life. And he was so excited about the prospect 
of the newness of a democracy where he would have an 
opportunity to participate in its government. And I think he 
had tremendous overexpectations as well.
    I think that what I've seen from the Iraqi people is they 
saw the United States as such a big and powerful Nation that we 
can just do this and everything would be good. At one point I 
asked him if there are things that we did that concerned him. 
He said when you throw candy on the ground and our kids pick 
them up like they're chickens, he said our kids aren't 
chickens. And I thought, well, you know, back home soldiers in 
parades, we throw the candy on the ground, the kids run and 
pick it up; but again, this told me, wow. He said to me, when 
you extend your hand out to a Muslim woman and she does this, 
your soldiers are offended--or some--and he said she is 
honoring you by saying thank you. But Muslim women don't shake 
hands with strangers.
    And then at one point he grabbed my shoulders--which I 
don't know if it's a very Iraqi thing to do or not--he looked 
me in the face and said, you don't know us and I don't know 
you.
    I couldn't wait to get back home to say to our State 
Department and Defense, bring back Iraqi Americans to Iraq, 
bring back Arabic speakers, because otherwise we're going to 
make some huge mistakes.
    Now, what I want to first do, I don't want to dwell on the 
mistakes I just want to be honest about them. I want to be 
honest about--I think you, Mr. Speaker, were--and we call once 
a Speaker always a Speaker in this Chamber--you pointed out the 
mistakes. I'd like you tell me what you think the mistakes 
were. I'd like you, Mr. AlMusawi, to say what you think, Mr. 
Talabany as well.
    I want to know where there is agreement and disagreement. 
And I will say this: You help this committee by having an 
honest dialog about your disagreements and not trying to be 
good soldiers among all of you to try to cover over those.
    So I will go with you first, Mr. Speaker. What were the 
mistakes, in your judgment? You alluded to some of them. I just 
want you to kind of list them, and what do you think were the 
most significant mistakes?
    Mr. Al Hasani. I wish Democrats were here, you know, to 
tell them what changed in Iraq. I think there was a change in 
U.S. policy in Iraq in the last 6 months or 8 months. And 
because of the violence that we are experiencing in Iraq, all 
three groups right now probably believe it is essential for the 
American forces to stay in Iraq.
    Today, if I speak in the terms of Sunnis, they are more 
comfortable to see U.S. forces patrolling their areas more than 
seeing Iraqi security forces patrolling the areas. I think Shia 
would have fears if the American troops leave, it could lead to 
some kind of civil war in Iraq. Kurds, I think they are very 
happy. I can't speak in the name of all three groups. I think I 
represent Iraqis.
    Mr. Shays. I know you say that and I know you believe it 
and I know that for you it is true. But for the purposes of 
discussion now, it would be helpful for you to tell us what you 
think many Sunnis feel, what the Shias feel, and what those who 
are Kurds feel. It would help us in understanding the issues. 
So I'm going to ask you to take off what you personally believe 
and tell us what you hear from a community that is primarily 
Sunni.
    Mr. Al Hasani. I think that the biggest mistakes that the 
United States did in Iraq was, as I said, you know, dividing 
Iraqis into Shia and Sunni and Kurds. That mistake led that 
each group started to look into their agendas, rather than 
looking into comprehensive Iraqi agenda.
    Mr. Shays. What would be another mistake?
    Mr. Al Hasani. Let me add another thing now about this 
mistake. This mistake also gave the religious parties in Iraq 
more power than they should have, because people started to 
vote for the parties because they are either Sunni religious 
party or Shia religious parties. Set aside the Kurds, because 
the Kurds are a different story when it comes to the Shia and 
Sunni issue. They are Sunni, but right now, you know, in this 
equation that we have, they are not considered neither Shia or 
Sunni. There are some Shia elements within the Kurds too.
    The second important mistake, I think, was dissolving the 
Iraqi security forces. That was the worst thing that can happen 
to any country. I think we should have probably taken out some 
of the major generals in the Iraqi Army, the big generals, and 
some other people who committed crimes against the Iraqi 
people. But the rest of the Iraqi Army should have stayed 
there. Once we dissolved the security forces and didn't even 
find ways to pay these people so they can find some dignified 
life for themselves, we left these people to be, you know, 
victims; and the terrorists groups started to take these people 
and make them part of their insurgency. Today, the insurgency 
in Iraq mostly are ex-Iraqi officers. And unless we deal with 
the insurgency with the understanding that, because of the 
dissolving of the Iraqi Army, that's what happened, we cannot 
solve a security problem in Iraq.
    And the way we proceeded in bringing back some of the Iraqi 
security officers, it was done in a biased way. I think even 
today we have problems to bring some of the ``Sunni officers'' 
back to the security forces. I remember that--at least I heard 
it just recently by General Nash--when he talked about the 
components of the Sunni in the Iraqi Army, said there are 
probably less than 10 percent. Where the population of the 
Sunnis, it is very difficult to determine who is the majority 
in Iraq, whether they are the Shia or the Sunni. There is no 
census in Iraq that tells anyone that this----
    Mr. Shays. I will tell you what we think. We think that the 
Sunni population is closer to 20 percent. We think the Kurdish 
population is closer to 20 percent. And we tend to think of the 
Shia population as closer to 60 percent. That's what we 
believe.
    Mr. Al Hasani. Well, there is no basis for that. And I--I 
really don't like, you know, even dividing the Iraqis, as I 
said.
    Mr. Shays. I know that.
    Mr. Al Hasani. But once you start, you know, putting 
numbers and you don't have census, because this issue is very 
delicate issue. It has to do with the election. When you 
divide, you know, the people in this way, you give majority to 
certain people. Then people start claiming that they are a 
majority. Are deepening the division among the Iraqi population 
when we talk in that sense.
    Mr. Shays. You have given me two very serious mistakes you 
think were made.
    Mr. AlMusawi, what do you think were the mistakes?
    Mr. AlMusawi. One of the most crucial issues that we can 
consider as a mistake is the security issue.
    Mr. Shays. Is the what issue?
    Mr. AlMusawi. The security issue. From the beginning, I 
think there is a lack of how to install or how to create 
security institutions. I believe there is kind of lack of trust 
between the Americans and some Iraqi security parties. From the 
beginning, we--we called for the security forces must be leaned 
on the Iraqis. The Iraqis should take the initiative and should 
run the security files.
    This mistrust, I would like to call it, between the 
Coalition troops and some Iraqi--Iraqi parties and the concerns 
from some militias and what they called that they have some 
relations or links with their original countries. Actually, 
this one caused a lot of losers for all Iraqi security forces.
    Militias should--as soon as Alawi government, the militias 
that from 91--and in 91 there is certain articles of--and if we 
applied this law on all militias I think there is no big deal 
about how to deal with the militias. Many of the militias, they 
are recruited. Most of them, they were in the Iraqi forces. 
Most of them educated people. So we can make use of those 
militias. This is one.
    Second, there is many security plans prepared by the Iraqi 
political parties. And just last year, there is a serious 
comprehensive security plan prepared by SCIRI, and this 
security plan contains many measures to help the security in 
Iraq. One of these measures to get the Iraqis themselves 
participating in their security cases. And crucial to the 
people's committees.
    Mr. Shays. What I need to understand, though, is tell me 
the mistakes that were made. Did the United States make any 
mistakes? One of the mistakes was dividing Sunnis, Shias, and 
Kurds. The other was dissolving the Iraqi security forces. I 
believe both of those were mistakes, particularly the second. 
I'm not clear with where you think the mistakes were made. Did 
the United States make any mistakes before we transferred power 
in June 2004?
    Mr. AlMusawi. I am talking about this time.
    Mr. Shays. I am talking about the early on, the first year 
or so. Is there a point where you think we made some--some big 
mistakes in that first year?
    Mr. AlMusawi. After the dissolving of the security forces--
--
    Mr. Shays. Do you think that was a mistake?
    Mr. AlMusawi. Absolutely. I believe so.
    Mr. Shays. OK. That is helpful, thank you. Mr. Talabany.
    Mr. Talabany. Thank you, Mr. Chairman. Mistakes have been 
made. And I think mistakes have been made on both sides, both 
on the Coalition side and also on the Iraqi side. To go through 
a few, I think first the allowing of the looting to go on hurt 
us and America's credibility considerably in the country.
    Mr. Shays. Tell me--I don't want to bias it--tell me how 
Iraqis viewed the looting. What did they interpret from the 
looting?
    Mr. Talabany. Well, it fed into the conspiracy theories. 
There were many conspiracy theories floating around the 
country. The fact that the oil ministry was one of the few 
ministries that the Coalition protected fed into many thinking 
that the Americans are coming in only for the oil. We know that 
is not the case, but once this spreads throughout the tea 
houses of the country, it spreads like wildfire.
    Mr. Shays. Having spent $300 billion, we hardly got a 
benefit out of oil. I mean, in other words, you could never 
repay what the United States has already spent. But I 
understand your point. Your point is the looting made people 
feel that we were only protecting what we were interested in 
and the rest of the country be damned.
    Mr. Talabany. Is a perception.
    Mr. Shays. I understand. I understand.
    Mr. Talabany. Another major mistake was the political 
vacuum that was left open. And I think here what many people 
actually don't know is that when General Garner was heading up 
the office of ORHA, the Office of Reconstruction and 
Humanitarian Assistance, there was discussions with the then 
U.S. envoy, Ambassador Khalilzad, to have an interim 
government, form an interim government--we are talking April 
and May 2003--to have an interim government that would step in 
and run the country. The Iraqis failed to form this government. 
And they failed because of the divisions that have existed in 
the country along ethnic and sectarian lines and will continue 
to exist in this country.
    We could not reach an agreement on who, how, and where this 
government would take shape. This created the CPA and, 
ultimately, a year lost with American rule in the country. So.
    Mr. Shays. Did it give the view that there was an 
occupational government?
    Mr. Talabany. It wasn't just a perception issue, Mr. 
Chairman. The United States and the United Kingdom officially 
and legally changed their status from liberators to occupiers 
by going to the U.N. and forcibly becoming an occupier in the 
country.
    Mr. Shays. Hold your thoughts. I would like to ask the two 
other witnesses, do you think that was a mistake? Do you think 
we could have transferred power sooner, and do you think it was 
a mistake to call it occupiers?
    Mr. Al Hasani. I think it would have been very difficult to 
do it. Although it would have been also wise to do it, to try 
to find ways to form an Iraqi government earlier as possible. 
But I think there were some really difficulties to do that at 
that time too.
    So you needed some transitional period, you know, to form 
an Iraqi Government, but I think it should have been done much 
earlier than we did it later on.
    Mr. Shays. Thank you.
    Mr. AlMusawi. I think we had an opportunity in March, early 
March 2003, in Salahadin to form a transitional government. But 
unfortunately, there is a kind of contentions between the 
parties at that time, the American officials and Salahadin. I 
think this was a missed opportunity, unfortunately.
    Mr. Shays. One of the challenges would have been, whatever 
government it was, it would have been set up by the United 
States so it would have looked potentially like a puppet 
government. That would have been one of the challenges that you 
would have had.
    Should we have reached out--while we are on it, I will come 
back to you Mr. Talabany. Should we have looked at Iraq more 
from a tribal standpoint than a religious standpoint? Would we 
have gotten better results, may I ask you, Mr. Speaker, if we 
viewed it more from a tribal standpoint?
    Mr. Al Hasani. Well, I think even tribal standpoints are 
not good points to look at the Iraqis. I think the way we 
should have handled the Iraqi situation, I disagree with 
probably my fellow Iraqis that from the beginning we should 
have not talked about Sunni and Shia and Kurd issue. This has 
been done in the opposition before even the troops went to 
Iraq, there was talks about, you know, Shia and Kurdish 
alliance, and Sunnis they were out somewhere else. It is their 
fault they didn't participate from the beginning in the 
opposition the way they should have been, but that's, you know, 
something that they paid a high price for. But that was planned 
even long before we went to Iraq. So when you went to Iraq 
there was only that formula that people were looking at it.
    But I think the United States had the responsibility, you 
know, to impose probably another form here. Citizenship in Iraq 
should be built on citizenship rather than being built on 
sectarian differences--oh, you know, tribal differences.
    Mr. Shays. I am going to just tell you--obviously I have no 
credibility since I'm not an Iraqi--but I am more sympathetic 
to the message that Mr. Talabany said, that basically there are 
differences. And they're not as big in my judgment as people in 
this country want to make them out to be, but they are 
probably--I view them bigger probably than you do in terms of I 
do think the Middle East tends to view Sunni, Shias, and Kurds 
differently.
    Let me just ask you to comment on Mr. Talabany's comment 
about the whole issue of this last point, if you could, and 
then I'm going to go back to Mr. Talabany.
    Mr. Al Hasani. I differ with Mr. Talabany. I differed with 
him even when we were on the governing council.
    Mr. Talabany. That is democracy.
    Mr. Al Hasani. This is the new Iraq. We can at this time 
differ in Iraq, but I would hope that the difference wouldn't 
unleash the point that we are killing each other. But I differ 
with Mr. Talabany that these differences existed a long time 
ago. And it isn't the 1,400 years that we're talking about. 
This is political differences right now we are talking about.
    And what happened in Iraq, I left Iraq in 1979. Came to the 
United States, OK? When I returned back, I didn't know which of 
my friends were Shia or Sunni. I didn't. It was easy to know 
which one is Kurd because the language differences, but it was 
very difficult to know who is Shia and Sunni. But when I came 
back, you know, I found out that, you know, that we--that the 
Iraqis themselves played a major role in dividing the Iraqi 
site for political reason, for political gains. And that's the 
mistake that we're paying the prices for right now. And unless 
we go back to be Iraqis, it will be very difficult to resolve 
the Iraqi problem.
    Mr. Shays. Let me just have you finish your points. Mr. Van 
Hollen is here, and I want to make sure he can join in this 
discussion which I think is very interesting. Mr. Talabany, 
what were some other potential mistakes?
    Mr. Talabany. Thank you, Mr. Chairman. I think--I don't 
disagree with the notion that it was wrong to disband the 
security force. I agree with my esteemed colleague, Speaker Al 
Hasani, that we didn't do enough to bring people back, because 
the reality was there was no Iraqi forces after the United 
States had rolled in. The military had itself disbanded. The 
order by the CPA was just basically a rubber stamp on the facts 
on the ground that had happened.
    The mistake, in my opinion, wasn't the disbanding of the 
army; the mistake actually was not bringing people back into a 
new security force quick enough. I think the way, when we did 
start to rebuild the Iraqi security force, the way we just 
accepted everybody into the security force was another mistake. 
There was very little vetting going into who was actually being 
recruited. And much of the insurgency that first started 
happened from within the security services by people who had 
received senior posts in the security services. Ninety percent 
of the police stations in Mosul that were set up with the help 
of the U.S. military were overrun by the insurgents because of 
the insurgents from within those police stations.
    One other, I think, mistake--and this again is a combined 
mistake on the Iraqi side--is the economic development 
strategy. We haven't focused enough on developing the country's 
economy, improving people's lives. We focused too much on the 
political and security developments, but we need that third 
track to bring stability to the country; because it is 
ultimately feeding citizens, giving them electricity, providing 
them the basic services and getting them a job that is going to 
calm the situation and bring people on the side of the 
government and stop them from acquiescing to the activities of 
the insurgents and the terrorists.
    Mr. Shays. Let me, before turning to Mr. Van Hollen, say 
that in my early times in Iraq I literally went outside the 
umbrella of the military, and DOD actually discouraged me from 
coming to Iraq, which I found outrageous. And I would go with 
nongovernmental organizations, and I will leave their names 
anonymous because I don't want to endanger them. But what they 
did, they were given a small amount of economic dollars, but 
these nongovernment organization were throughout Iraq. They 
hired Iraqis to be their office managers and to work in the 
offices, and then these nongovernment organizations hired 
Iraqis to do the work. And instead of bringing, in some some 
cases, a backhoe, they brought in a hundred shovels. In some 
cases it may have been a contractor who had a backhoe. And I'm 
told that hardly any of the projects done by the 
nongovernmental organizations, which were done by Iraqis, have 
been destroyed; that they have all thrived.
    Mr. Talabany. If I can just comment and on that, Mr. 
Chairman, I agree with you 100 percent. And I think one of the 
successes in Iraq has been what is called the CERP program, the 
Commodities Emergency Response Program, where it has again been 
U.S. military commanders working directly with Iraqis, not 
through giant contractors who are hiring very expensive private 
security companies that are siphoning all the funds out of the 
country. In order for these projects to be successful, the 
Iraqis must take ownership of these projects.
    Mr. Shays. Would you agree that we would have been better 
off hiring the Iraqis to do the construction work instead of 
hiring Europeans and Americans and others from outside Iraq to 
do a lot of this work?
    Mr. Al Hasani. Sure. But we also probably needed to monitor 
even the Iraqis. We have, you know, a large number of corrupted 
people in Iraq, too. So we should not blame only the people 
from the United States, the contractors from the United States 
being corrupted. But we have, you know, large corruption in 
Iraq itself. And a lot of the billions of dollars that the 
people are talking about went to the pockets of the Iraqis, 
not, you know, Americans. Probably American money went to the 
pockets of some of the American contractors, but Iraqi money 
went definitely into the pockets of some big Iraqi corrupted 
people.
    Mr. Shays. Thank you. Mr. Van Hollen.
    Mr. Van Hollen. I thank you, Mr. Chairman, and thank all of 
you gentlemen for being here today to testify. Sorry I had to 
go out for a minute, but I had an opportunity to look at your 
testimony. And we have talked a lot this morning about the 
importance of national reconciliation within Iraq in order to 
move forward.
    And my question to each of you would be in order to achieve 
national reconciliation, will there have to be changes made to 
the Constitution? And if that has to happen in order to achieve 
national reconciliation, what would the timeline be and what 
are the key changes that you believe have to happen?
    Mr. Al Hasani. Absolutely. I think what this reconciliation 
is about is about the fundamentals of building the new State of 
Iraq. As I mentioned, the fundamentals were flawed before when 
we went over there. I think the way we built the state was 
wrong.
    We need to change that. And amending the Constitution is 
one of the important issues to reach reconciliation.
    Right now, I am very worried about this thing, because at 
the time when we were writing the Constitution, people agreed 
from different groups that they worked together to amend the 
Constitution. The signals that I am seeing right now worries 
me. I see that some of the parties who agreed to amend the 
Constitution, they are backing out. That is not good for the 
country. This Constitution has not been agreed upon by all 
major component Iraqi components.
    And it isn't, you know, an issue that you say majority of 
Iraqis voted for this Constitution. We have a problem in Iraq 
that we need to realize that problem. Iraq is right now divided 
into three different societies. It wasn't our mistake--well, it 
was our mistake in the first place because some of our 
political actors informed Americans that the Iraqis are, you 
know, Shia and Sunni and Kurd.
    But anyway, this is what we have right now. And you cannot 
pass a Constitution and say the majority of Iraqi people agreed 
upon it, Kurds and Shia agreed upon it, and you leave the 
Sunnis. You cannot marginalize Sunnis. It is very dangerous to 
marginalize the Sunnis. Iraq will not be stabilized if any of 
its components are marginalized. Kurds were marginalized for 80 
years and they were an element of destabilization of every 
Iraqi government, and they had the right to do that because 
their rights were taken away from them. And the same thing 
applies to Shia or the Sunni in Iraq. That's why I think it is 
very important there are certain important issues within the 
current Constitution needs to be amended and we need to reach 
some agreement between different political parties in that 
regard.
    Mr. AlMusawi. I differ with my friend Hayim Al Hasani, 
because I believe that from the beginning we said that 
amendment is essential for the reconciliation of the land. And 
from that we believe that we shouldn't talk about the majority 
element. We have to understand that we believe that the most 
important issue to rebuild our Iraq, to agree with the equation 
of one man, one vote. This is the issue: We shouldn't talk--Al 
Hasani has said we are not Shia and not the Sunnis. So if we do 
not agree about this, we will not reach agreement between the 
Sunnis, the Shia and the Kurds. This is the issue.
    Unfortunately, we have to talk about this directly. The 
reconciliation means don't abuse the majority; that democracy, 
talking about the majority, should rule the country with 
respect to the minorities. This is the truth. We shouldn't 
focus on the Shia and the Sunnis. We respect their cause, 
talking about the amendments, and SCIRI also agreed on all 
amendments that should go through the legal processes.
    This is the issue. The reconciliation is a vital issue 
today in Iraq. But we have also it is a mutual mission for all 
Iraqis. All Iraqis should accept each other. All Iraqis 
shouldn't be making the kind of accusations regarding each 
other. The Iraqi leadership, political leadership, should agree 
on making consensus regarding each other. And from this point, 
I would mention that the political current of the initial 
Security Council must be activated to take initiative, to make 
consensus and compromises regarding the contentious issues in 
the Constitution. All Iraqis believe that there is--there is an 
article in the Constitution talking about the amendments so 
there is no big problem. There is no big deal about making 
amendment in the Constitution.
    We believe we have all Iraqis, and all Iraqi political 
parties--there is no exceptions--must backing al-Malaki and his 
reconciliation of Iraq.
    Mr. Van Hollen. Before we go to Mr. Talabany, let me make 
sure I understand your response there. The Constitution has a 
provision in it for amendment, just like the U.S. Constitution 
has a provision for amendment.
    Mr. AlMusawi. Yes.
    Mr. Van Hollen. I guess my question is, in order to achieve 
national reconciliation do you believe it has to be amended? 
And if so, what amendments would be required? Or do you believe 
it doesn't have to be amended?
    Mr. AlMusawi. That's right. Also the Constitution--talking 
about forming a reviewing committee for the Constitution. And 
this committee should be formed in any time this has belonged 
to the Council of Representatives. So after forming this 
committee, they should take care of all contentious articles in 
the Constitution. Then they should report to the Council of 
Representatives. This is the process of the amendment in the 
Constitution.
    Mr. Van Hollen. Mr. Talabany.
    Mr. Talabany. Congressman, I think as Ambassador 
Satterfield said, it all has to be part of a package. And in 
reaching national reconciliation, certainly making amendments 
to the Constitution is a component of it. Now, I think you will 
probably get different ideas about what changes need to be 
made, because these changes will ultimately reflect the 
insecurities and concerns of the various communities in the 
country. But one thing we have learned all along from our days 
in the opposition through the days in the interim governments 
and now this current government is that all-or-nothing policies 
fail. Nobody can have an all-or-nothing policy on any subject. 
And it is only through principles of consensus and compromise 
can we actually make progress and start to heal the pain of 
this country.
    There is a timeline that has been set for any proposed 
amendments to the Constitution, which was a timeline of 4 
months. Now there is some confusion as to when the 4 months 
actually begins; is it from the first day of the forming of the 
government, or was it before that? But I think if we haven't 
reached that deadline, we're almost there. And there has been 
very little dialog between Iraqi Parliamentarians and the Iraqi 
government officials and those who were seeking to make 
amendments to the Constitution on this particular issue. It has 
only just in the last week or so come to the fore and is 
starting to be debated. And the debate is going slowly.
    Mr. Van Hollen. Well, that is why I asked the question, 
because looking from here, it does appear that the process has 
been going very slowly. And there appears to be a disagreement 
as to exactly what was agreed to, not just on the timeline, but 
whether or not there was an agreement to change certain 
provisions with respect to the Constitution and what changes 
those would be.
    And I got caught up, I guess, in this current discussion 
with respect to the proposals that have been put forth by the 
SCIRI party, Mr. Hakim, about creating an autonomous region in 
the south. It has drawn a response from the Speaker in 
Parliament, saying that is not going to happen, that is a 
nonstarter. If you could all comment on what is going on right 
now with respect to the proposal to move ahead with the 
legislation now on creating the more autonomous region and what 
the implications would be.
    Mr. AlMusawi. I would first say that there is no 
marginalization to the Sunnis. The Sunnis are right now heavily 
participating in the government and in the Parliament. This is 
first.
    Second, the Hakim call, it is a call like their cause 
regarding the federalism. How to form the federalism. The 
contentious issue right now in the Council of Representatives 
is not about federalism itself, it is about how and when to 
form these federations. So one of the calls--one of the calls 
of for how to form the federations is this is a call of Hakim. 
He believes that provinces in the south could help stability in 
Iraq and could help improving the situation in the south. There 
is many other different calls. Some of the Iraqis thinking that 
one government should become a federation. The second call 
talking about each three government areas should form a 
federation, some have said one or more. And the Constitution, 
the article talking about one or more government areas could 
form a federation. So from that it is get this call, it is 
within the Constitution, this first.
    Second it is the call also a debatable call. This is belong 
to the Council of Representatives. If they pass it, that's 
fine. This they don't, this is another call.
    I have here a poll--I have here a poll from Nasarina news 
agency talking about a poll in the south and in Iraq in 
general, and they get a sample from 874 Iraqis. They asked them 
about the federalism. Do you believe in federalism? The people 
who refused the idea, 29.29 percent. The Iraqis who accept the 
idea for one government to be one federation is 12.01 
percentage. The Iraqis who believe----
    Mr. Van Hollen. I'm sorry; I don't mean to interrupt you, 
but the bells are ringing, which means that the votes are going 
to be soon. And I understand, I think, what you are saying. Let 
me just ask this, because, you know, clearly I understand the 
thrust of the testimony is that all of you support a one united 
Iraq, and it would be better not to have the distinctions 
between, in some cases, the different groups in the way we 
approach it. On the other hand, it is very clear from your 
testimony----
    Mr. Shays. If I could interrupt the gentleman. Mr. 
Talabany, from his perspective, said that the reality is we are 
different and we have to respect some of those differences. But 
in essence, Mr. Talabany, you are not suggesting breaking up 
Iraq. So you are right on that basic premise.
    Mr. Talabany. Not at all.
    Mr. Van Hollen. I was going to get to that. The last part 
of the question is for Mr. Talabany. But clearly in the 
testimony you have very important issues in the negotiations to 
protect minorities within a majority Shia population.
    I guess my question is for you, Mr. Talabany. We have a 
mutual friend of you and me and your father, Peter Galbraith, 
Ambassador Galbraith, who has just written a book. And the 
title of the book is The End of Iraq. Mr. Galbraith has had a 
long association with Iraq, and, as you know, what he says is 
the reality on the ground today is that the different 
communities are moving in their own separate directions. You 
have internal migrations going on within Baghdad on a massive 
basis. And he is not saying that he wants to split up Iraq as 
part of what he wants to do. He is more saying it is a 
reflection of what has happened on the ground.
    And we heard earlier in the testimony about Mr. Barzani's 
decision on the flag, and we know that back in January in the 
referendum in the Kurdish area, people at least on a straw vote 
basis said they wanted an independent Kurdistan. So what, I 
guess, is your view of Ambassador Galbraith's analysis, 
situation in Iraq today?
    Mr. Talabany. I think Ambassador Galbraith highlights the 
divisions that exist in the country today. And why or how those 
divisions came about into being, can debate that. But when you 
have a lacking of a political order, when the state cannot 
protect the citizens but being Shia protects him, when a state 
cannot protect a Sunni but being a Sunni protects him, it 
brings forth the identities that people have. And it is not 
about what we hoped Iraq would look like or whether we have a 
nostalgic view of what Iraq looked like before Saddam's regime. 
It is a reality on the ground that is clear in this violence 
going on today. There are Shiites killing Sunnis and Sunnis 
killing Shiites and this violence is there for all to see.
    What we are saying is that this can be addressed by coming 
up with a political order that takes into consideration the 
realities on the ground, the facts on the ground, and by not 
ignoring them and hoping that Iraq was a certain way.
    I think as far as--if I can address the flag issue, it is a 
major issue as far as national reconciliation is concerned. The 
flag of the country should represent the country. The ``Old 
Glory'' has representation of every State in the flag. The 
Kurdish people do not feel that the current Iraqi flag 
represents the people of Kurdistan as Iraqis. It was a flag 
that was used by a regime that tried to kill us, that tried to 
exterminate us, that committed genocide against us. And what we 
are trying to do is build a new country. Kurds have proven 
themselves more than anyone else, Kurds have proven themselves 
more than anybody else to be Iraqi. They have sent their 
brightest and best to Baghdad in the cause of unity in Iraq.
    Mr. Shays. I am sure there is no bias here. Just sent my 
dad there.
    Mr. Talabany. In all of the discussions where we tried to 
reach a compromise--and I don't want to play our own trumpets 
here, but it has been the Kurds who have made the concessions 
on all sides.
    Mr. Van Hollen. I thank all of you. Unfortunately, we have 
a vote. This is a discussion we could pursue. I thank the 
chairman.
    Mr. Shays. I am just going to say this. We are going to 
invite--in fact, plead that you come back on Friday. I think we 
warned you that might be the case. At 2 o'clock, this committee 
reverts--at 2 o'clock, this committee reverts to another 
committee. This room converts to another committee of--we don't 
have this room all day. But what would make it, I think, 
advantageous for you to in fact come back and speak, I am going 
to ask you to comment before we leave now, but what would be 
advantageous is the topic will be as well--the topic on Friday 
is Consequences of Leaving: now, prematurely, or after power is 
transferred and so on.
    So it is a nice segue. We would like to have you come back 
on Friday to talk about what we haven't yet talked about the 
reconciliation, all the things, specifically federalism, you 
know, the allocation of oil resources, and have you be very 
clear as to where the differences lie on all of these issues 
and which are going to be the most difficult.
    So what I will ask, after our Speaker speaks, is to ask you 
to come back. Is that possible for each you to do? On Friday? 
We would ask to you come back at 10 o'clock. And then before 
the panel--the next panel will speak--it is only one panel, 
they will speak after you. And we will then go on to their 
topic, but you could then speak on their topic as well. Would 
you like to close?
    Mr. Al Hasani. I just wanted to comment on some of the 
issues that the Congressman raised. When I sit here at the 
beginning, I say I am Iraqi. Then sometimes I talk about Sunni. 
It is like when a white American Congressman sits here and 
defends a Mexican American or African Americans. It isn't like, 
you know, you are taking sides with this group or that group. 
This is how, you know, I proceed with this issue.
    Mr. Shays. Exactly.
    Mr. Al Hasani. The other issue is that it is amazing that 
we agree what the problem is. Problem is, can we form a 
government that is going to be loyal to the Iraqi people, can 
protect the Iraqi people, whether they are Sunni or Kurd or 
Shia? And instead of working on that project, we keep saying 
that, well, that's not achievable, so probably we have to find, 
you know, different ways for every one of us to go.
    So the issue is that probably we all agree on major things. 
And I think the same thing is true back home. But what needs 
is, you know, some people to help us to get together and work 
these differences. I think that party is the United States. The 
United States is right now the glue that glues the Iraqis 
together. And that's why I warn if the troops leave Iraq, we 
will be----
    Mr. Shays. But we will have that dialog. And I thank you 
for--I think we told you this might happen. What we're doing is 
we are recessing. We are going to impanel you first. You are 
already sworn in. We don't need to swear you in again. And we 
would like to talk about these very issues that you are talking 
about. And then we will get to the full hearing afterwards.
    I view the three of you as essential to the dialog that 
we're having. This is an important panel. And we don't want to 
cut it short. So thank you so very much. So we will stand 
recessed. We stand recessed until 10 o'clock on Friday morning. 
Thank you all very very much.
    [Whereupon, at 1:42 p.m., the subcommittee recessed, to 
reconvene at 10 o'clock a.m., Friday, September 15, 2006.]

                                 <all>

</pre></body></html>
